<html>
<title> - COMBATING FORCED LABOR AND MODERN-DAY SLAVERY IN EAST ASIA AND THE PACIFIC</title>
<body><pre>[Senate Hearing 113-461]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-461
 
  COMBATING FORCED LABOR AND MODERN-DAY SLAVERY IN EAST ASIA AND THE
                                PACIFIC

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE

91-141 PDF                       WASHINGTON : 2014
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS

             ROBERT MENENDEZ, New Jersey, Chairman
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director
        Lester E. Munson III, Republican Staff Director

                         ------------

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

             BENJAMIN L. CARDIN, Maryland, Chairman

CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
BARBARA BOXER, California            RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
EDWARD J. MARKEY, Massachusetts      JOHN McCAIN, Arizona

                              (ii)


                            C O N T E N T S

                              ----------
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening
  statement......................................................     1
CdeBaca, Luis, Ambassador at Large for the Office to Monitor and
  Combat Trafficking in Persons, U.S. Department of State,
  Washington, DC.................................................     7
    Prepared statement...........................................     9
Eaves, Jesse, senior policy advisor for child protection, World
  Vision, Washington, DC.........................................    36
    Prepared statement...........................................    38
Marciel, Hon. Scot, Principal Deputy Assistant Secretary for East
  Asian and Pacific Affairs, U.S. Department of State,
  Washington, DC.................................................     3
    Prepared statement...........................................     5
Misra, Neha, senior specialist, Migration and Human Trafficking,
  Solidarity Center, Washington, DC..............................    22
    Prepared statement...........................................    25

                                 (iii)




  COMBATING FORCED LABOR AND MODERN-DAY SLAVERY IN EAST ASIA AND THE
                                PACIFIC

                              ----------


                         TUESDAY, JULY 8, 2014

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L.
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin and Rubio.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, good morning and welcome to the
Subcommittee on East Asia and the Pacific for today's hearing.
    Senator Rubio has indicated to me that he will be here
shortly, but that it is certainly okay for us to start the
hearing. And I want to give a maximum amount of time for the
committee to have a discussion.
    Slavery still exists. It exists around the world today, and
it is something that we cannot allow to continue. Trafficking
is the modern-day slavery. We understand that. And, thanks to
the U.S. leadership, we have taken action not only in the
United States, but we have been a global leader in combating
modern-day slavery and trafficking.
    I am proud of the role that the U.S. Helsinki Commission
has played. I had the honor this year to chair the U.S.
Helsinki Commission. It rotates between the House and the
Senate. My cochairman, Chris Smith, has been one of the leaders
on trafficking issues.
    But, going back many years ago, the Helsinki Commission
raised the issue of trafficking as a human rights issue and
discussed the matter in which the United States could play a
major role. As a result of the hearings in our Commission, the
OSCE took major steps to help all 57 states in the OSCE deal
with trafficking issues. But, it also led to the passage of the
Victims of Trafficking and Violence Protection Act in 2000, and
we now have what is known as the Trafficking in Persons Report
that we receive every year. This report, to me, is extremely
valuable. And whenever an Ambassador from another country or a
leader from another country is in my office, I look at this
report, and it becomes part of the conversation as to what they
are doing in regards to addressing trafficking.
    In 2010, we added the United States as one of the countries
that we evaluate, because no country is perfect, and every
country can improve. The Trafficking in Persons Report has four
categories in which countries are listed: Tier 1, which is
those countries that are in basic compliance with international
standards to combat trafficking; Tier 2 are countries that are
not there yet, but we believe are on the right path toward
accomplishing and meeting their international responsibilities;
Tier 2 Watch List, which are countries that are not moving in
the right direction--they have made some progress, but they
must do more to comply with their international
responsibilities; and Tier 3, those countries that are out of
compliance. If a country is in the Tier 2 Watch List for 2
consecutive years, there is a requirement they be downgraded to
Tier 3 unless a waiver is sought, which can last for only up to
2 years. If a country is in Tier 3, the consequences can be
possible foreign aid restrictions. So, it is an important guide
for us to determine what to do.
    Now, trafficking can take many forms. We all know about
young girls and boys that are trafficked for prostitution. That
is a matter that should be of outrage to everyone. But, we also
traffic labor, which should also be outrageous to everyone.
    So, today's hearing is combating forced labor and modern-
day slavery in East Asia and the Pacific. And, for those who
have been following the hearings of the subcommittee, you know
we have had many hearings dealing with the Rebalance to Asia.
We have looked at it from many different points of view. We
have looked at it from human rights and good governance, we
have looked at it from the economic point of view, we have
looked at it from the military security point of view. And our
objective has been to strengthen the bilateral ties between the
countries of East Asia and the Pacific and the United States,
consistent with President Obama's policies. But, our bilateral
relationship is very much dependent upon the fundamental human
rights, rule of law, and the dignity for vulnerable women, men,
and children, and the commitments made by the countries of East
Asia and the Pacific.
    The International Labor Organization has come out with some
startling numbers. One-third of the global illegal profits
generated from the use of forced labor in the private sector
are made in Asia and the Pacific. Illegal profits obtained
through the use of forced labor in the private economy
worldwide are estimated to be about $150 billion per year. Over
one-third comes from the Asia-Pacific region. It is a problem
that we need to focus on. Of the 20.9 million forced labor
victims worldwide, 11.7 million, more than half, are estimated
to be in the Asia-Pacific region. That is why we are holding
this hearing. We are holding this hearing to get a better
understanding of what can be done in regards to forced labor
trafficking.
    And let me point out, we are all consumers, and in many
cases, we are buying products that have been produced, in part,
by forced labor. But we can be better in helping solve this
problem of forced labor and modern-day slavery.
    The TIP Report that I referred to had some disappointing
downgrades of countries that are within the jurisdiction of
this subcommittee. Thailand, a long-time ally of the United
States, has been downgraded. And Malaysia, which is a TPP-
aspirant country, has also been downgraded. We have several
countries that are on the Tier 2 Watch List: Brunei, Cambodia,
Laos, Marshall Islands, Solomon Islands, and Timor-Leste. These
are countries that we expect better from, particularly if they
are to achieve a stronger bilateral relationship with the
United States.
    So, one positive sign, I might point out, is that China,
which was previously Tier 3, is now on Tier 2 Watch List. That
is an improvement, and we hope that those improvements will
continue. And I expect it had something to do with the fact
that they have eliminated their--or at least have made a
commitment to eliminate their reeducation through labor
provisions.
    So, today we have a panel of experts with us who can help
us sort out where we are on forced labor and the trafficking.
And I am pleased to introduce our witnesses that are on the
first panel.
    Scot Marciel, who has been a frequent visitor to this
committee--we thank you for your participation--the Principal
Deputy Assistant Secretary for the Bureau of East Asia and
Pacific Affairs at the State Department, a career member of the
Senior Foreign Service, previously served as U.S. Ambassador to
the Republic of Indonesia.
    And he is joined by Lou CdeBaca, the Ambassador at Large
for the Office to Monitor and Combat Trafficking in Persons,
served as Ambassador at Large and Senior Advisor to the
Secretary, and directs the State Department's Office to Monitor
and Combat Trafficking in Person, previously served as counsel
to the House Committee on Judiciary, and one of our country's
most decorated Federal prosecutors at the Department of
Justice.
    So, we have two people who I think can help us greatly
understand this. As I think both of you understand, as is the
practice of our committee, your formal written statement,
without objection, will be included in the committee record, as
will the second panel's formal statements, without objection.
    So, Scot, you may proceed as you wish.

  STATEMENT OF HON. SCOT MARCIEL, PRINCIPAL DEPUTY ASSISTANT
 SECRETARY FOR EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT
                    OF STATE, WASHINGTON, DC

    Ambassador Marciel. Thank you. Chairman Cardin, members of
the subcommittee, thank you for the opportunity to testify
today on human trafficking in the Asia-Pacific region.
    It is really a privilege for me to be able to testify
alongside Ambassador CdeBaca. He and his team, as you have
mentioned, have done so much to combat trafficking across the
region and around the world.
    I have worked on human trafficking issues both here in
Washington and abroad, most recently as Ambassador to
Indonesia. There, among many other anti-trafficking activities
that we did, I was involved, for example, in the MTV End
Exploitation and Trafficking Campaign in 2012. This is an
effort that U.S. Government has funded. It has been very
successful in raising awareness about the dangers of
trafficking in Southeast Asia.
    Human trafficking, as you mentioned, Mr. Chairman, remains
a visible and pressing concern in East Asia and the Pacific.
While governments across the region are more aware of the issue
than in years past, and many are doing more to combat it,
progress to date is insufficient. Many governments in the
region have developed legal and policy frameworks to deal with
trafficking, and several have recently enacted comprehensive
anti-trafficking laws. However, implementation of these laws is
sometimes weak.
    And the insufficient progress on anti-trafficking efforts
is sometimes linked to broader challenges facing some of these
governments: inadequate rule of law, a weak justice system, and
corruption. So, the State Department seeks to sustain progress
on these issues, because they are key to development and to
democracy and, of course, to more effective efforts against
trafficking.
    So, the EAP Bureau and--along with our colleagues from the
JTIP office, work closely with foreign governments and
international partners on strategies and programs to prevent
trafficking, protect victims in vulnerable populations, and
prosecute offenders. And, in this, the TIP Report is actually a
very effective tool, as you mentioned, Mr. Chairman.
    In his letter accompanying this year's report, Secretary
Kerry stated that, ``We face no greater assault on basic
freedom than the evil of human trafficking.'' And in EAP,
Assistant Secretary Danny Russell and I and our Ambassadors
throughout the region regularly meet and encourage governments
to do more against trafficking. We use the TIP Report and other
tools, working throughout Asia, to increase public awareness,
encourage better and more effective legislation, and promote
greater efforts to prevent trafficking, investigate and
prosecute trafficking crimes, and assist victims.
    Because so much of the work that we do is done by our
embassies, I would like to highlight a few examples of some of
the work that our embassies in the field have been doing.
    For example, our Embassy in Cambodia recently hosted the
first-ever Anti-Trafficking Tech Camp, where technologists and
civil society organizations, together, developed creative, low-
cost, easy-to-use solutions for areas with historically high
rates of trafficking. Our Embassy staff in Cambodia also worked
with the Ministry of Labor there to develop an interactive
voice-response system that makes information on safe migration
readily available by phone throughout the country. The Embassy
is also working with Cambodian authorities to develop policies
and guidelines for conducting undercover investigations of
human trafficking.
    Our Embassy in Thailand is supporting NGOs that help
migrants and trafficking victims get access to justice. Our
programs are enhancing Thai investigation and prosecution
capacity, and we are arranging to place a technical advisor in
the Ministry of Labor to help guide policies on forced labor
trafficking.
    In the Pacific Islands, our Embassies are encouraging
greater effort to tackle forced labor on fishing vessels. In
the Marshall Islands, we are providing technical assistance in
support of the government's drafting of anti-trafficking
legislation and working to help the police and prosecutors
understand how better to identify and prosecute trafficking
crimes.
    In all of our Embassies, our Ambassadors and our Embassy
staff regularly engage with host government officials, civil
society, and international partners to highlight the importance
of increased anti-trafficking efforts. I can say, from my own
experience, that this effort is well integrated into our
Embassies' overall plans, as well as its daily work.
    Finally, in addition to bilateral efforts, we are acting at
the regional level. With the TIP office funding, we supported
the first-ever ASEAN-United States Joint Regional Project to
Combat Human Trafficking and the American Bar Association's
Rule of Law Initiative to train heads of anti-traffic units
from all 10 ASEAN countries.
    Looking forward, we are committed to continuing our work
with governments throughout the Asia-Pacific region to help
them more effectively combat human trafficking. EAP and the TIP
office will continue to work closely together to assess the
situation, develop programs and diplomatic strategies to better
combat trafficking, and encourage governments to take action to
prevent trafficking, protect victims, and prosecute
traffickers.
    Mr. Chairman, thank you again for the opportunity to
testify today. I look forward to your questions.
    Thank you.
    [The prepared statement of Ambassador Marciel follows:]

               Prepared Statement Ambassador Scot Marciel

                              introduction
    Chairman Cardin, Ranking Member Rubio, members of the subcommittee,
thank you for the opportunity to testify today on human trafficking in
the Asia-Pacific region. It is a privilege to stand alongside my
colleague, Ambassador CdeBaca, whose experience and expertise help us
boost anti-trafficking efforts across the Asian-Pacific region.
    I would also like to thank the subcommittee for its contributions
to combating human trafficking, and to thank you, in particular, Mr.
Chairman, for your leadership on this issue.
                      trafficking in asia-pacific
    Human trafficking remains a visible and pressing concern in East
Asia and the Pacific. While governments across the region have an
increased awareness of trafficking in persons, corruption and a lack of
political commitment hinder more substantial gains in some countries.
Many governments in the Asia-Pacific have developed adequate legal and
policy frameworks to deal with human trafficking, and several have
recently enacted laws that comprehensively combat this crime; however,
implementation of these trafficking laws is sometimes weak. It is
important to note that, in some countries, the limited progress we have
seen on anti-trafficking efforts is linked to a broader set of
challenges facing the government. When civilians routinely encounter
police intimidation, corrupt judges, or poorly trained immigration
officials, human rights violations go unnoticed, unaccounted for, and
multiply. In countries where this occurs, State Department officials
seek sustained adherence to rule of law, democratic practices, and good
governance. Expanding democracy and respect for human rights is central
to our policy in Asia-Pacific, and combating human trafficking is a
priority for the Bureau domestically and at our embassies abroad.
    The East Asian and Pacific Affairs (EAP) Bureau collaborates
closely with the Department's Office to Monitor and Combat Trafficking
in Persons (the TIP Office) not only to draft and publish the
``Trafficking in Persons (TIP) Report,'' but to work throughout the
year on strategies and programs aimed at preventing trafficking,
protecting victims and vulnerable populations, and prosecuting
offenders. In Washington and in our embassies, EAP and the TIP Office
regularly share updates, lessons learned, and expertise to secure on-
the-ground ``buy-in'' from governments, civil society organizations,
and international partners to effectively combat trafficking in
persons. We place a huge emphasis on working together to encourage
foreign governments to improve their anti-trafficking responses.
    As mentioned in this year's TIP Report, simply equating human
trafficking to sexual exploitation misses much of the story. Labor
trafficking, prevalent throughout the region, is also a crime against
human dignity and human security. Worldwide the majority of trafficking
victims are held in labor trafficking situations, though we know sexual
exploitation often occurs with labor trafficking as well.
    The EAP Bureau understands the importance of addressing all forms
of trafficking and, with the TIP Office's support, has strongly
encouraged governments to do the same. As a direct result of the annual
TIP Report and sustained U.S. engagement, some foreign government
officials no longer ask for the definition of trafficking or for proof
that it exists within their respective borders. Rather, many officials
are now asking what steps they can take to improve their anti-
trafficking efforts. In short, the TIP Report has facilitated
substantive discussions abroad to strengthen political will, to draft
and implement TIP legislation, and to further increase public awareness
on the issue.
    Because so much of this important work is done by our embassies, in
the next few minutes I would like to highlight a few examples over the
past year where U.S. embassies in the region have worked with host
governments and civil society to combat trafficking. Our work in the
region is vital, not only because it increases awareness of and local
capacity to address TIP, but also because, in private and public
engagements, we persistently stress to host governments the importance
of increased action and attention to sex and labor trafficking.
    Our Embassy in Cambodia remains active in boosting anti-trafficking
efforts in cooperation with the government and has recently hosted the
first ever anti-trafficking TechCamp where technologists and civil
society organizations developed creative, low-cost, and easy-to-use
solutions for areas with historically high rates of trafficking.
Ambassador Todd not only personally invited Cambodian youth to
volunteer throughout the TechCamp, but also publicized the success of
the local event on his official blog.
    Additionally, Embassy staff worked with the Cambodian Ministry of
Labor to develop an interactive voice response system, which makes
information on safe migration more readily available by phone
throughout the country. In the area of victim protection, we have
helped over 760 victims in the past year and will continue to support
services to trafficking survivors, including repatriation, medical
care, psychosocial support, reintegration, and legal aid. To improve
efforts to prosecute trafficking crimes, we are working with the
Ministry of Justice to develop policies and guidelines for conducting
undercover investigations of human trafficking.
    In China, Department officials continue to encourage the Chinese
Government to improve efforts to prosecute trafficking offenses and
protect victims, make legal reforms to prohibit all forms of
trafficking, end forced labor in state-sponsored detention centers, and
transparently share information on its anti-trafficking efforts.
Embassy Beijing continues to advance the U.S. Government's anti-
trafficking agenda with counterparts within the Chinese Ministry of
Foreign Affairs and PRC law enforcement ministries; and by actively
recruiting up-and-coming Chinese officials to participate in
International Visitor Leadership Programs (IVLPs) and other capacity-
building programs.
    Since FY 2012, we have sent six professionals from Malaysia to the
United States on TIP-focused exchange programs (International Visitor
Leadership Program) and plan to send another four in FY 2015. In our
diplomatic engagements, we regularly and strongly urge Malaysian
officials to improve treatment of trafficking victims by reforming its
current victim protection regime.
    In the Pacific Islands, we encourage additional efforts to address
forced labor on fishing vessels in the Pacific and other forms of
trafficking. The U.S. Ambassador and his staff supported the Republic
of the Marshall Islands (RMI) Attorney General's Office's request for
technical assistance and legal advice for the TIP Task Force as it
writes the RMI's TIP legislation. The Embassy reached out to the TIP
Office to request short-term training and technical assistance; the
request was approved by Ambassador CdeBaca, and the TIP Office plans to
provide assistance in the coming year. Planned technical assistance
includes a component for police and prosecutors on how to identify and
prosecute TIP using the laws proposed. Partnerships like these, where
we provide some support and guidance to governments with a significant
stake in positive outcomes, will bring long-term success.
    As Ambassador CdeBaca notes in his testimony, Thailand made a
concerted effort over the past year to improve its anti-trafficking
data collection and continued to prosecute and convict traffickers.
Despite this progress, the government did not make sufficient efforts
to address forced labor among foreign migrant workers--including in the
fishing industry--and to address reported official complicity in human
trafficking.
    Embassy Bangkok will continue to support NGOs that help provide
access to justice for migrants and trafficking victims. Department
staff will also continue to work to enhance Thai capacity to
investigate trafficking cases and prosecute perpetrators by training
law enforcement officers at our International Law Enforcement Academy
(ILEA) in Bangkok and by arranging other police-to-police cooperation
and networking with counterparts along the Thai border. Embassy Bangkok
will also arrange the placement of a technical advisor in the Ministry
of Labor to help guide policies on forced labor trafficking.
    In Thailand and elsewhere, our ambassadors and embassy staff engage
regularly with host government officials, local civil society
organizations, and international partners to stress the importance of
increasing efforts to combat sex and labor trafficking.I would like to
reiterate how important it is ensure that both local politicians and
local civil society leaders are taking ownership of the TIP problem in
their respective countries. For example, with continued U.S. Embassy
support on TIP, the New Zealand government has partnered with the
Salvation Army to identify and educate vulnerable populations in
specific communities on the dangers and characteristics of forced
labor.
    Lastly, I would like to highlight our regional TIP efforts. With
U.S. encouragement, the Association of Southeast Asian Nations (ASEAN)
held its 6th Expert Group Meeting on Trafficking in Persons last month.
The group is working to create a regional plan of action and hold a
workshop on human trafficking later this year. With the TIP Office
funding, the State Department supported what became the first-ever
ASEAN-United States joint regional project to combat human trafficking,
fulfilling a Presidential commitment from November 2012.
    The TIP Office issued a grant to the American Bar Association's
Rule of Law Initiative to train heads of specialized anti-trafficking
units from all 10 ASEAN member countries with ASEAN Secretariat support
and enhance cross-border collaboration to combat human trafficking.
    With U.S. Government funding, the MTV End Exploitation and
Trafficking (MTV-EXIT) campaign has raised a tremendous amount of TIP
awareness in Southeast Asia, particularly with the youth demographic.
In Indonesia, I personally witnessed how an MTV-EXIT campaign in West
Java in September 2012 raised public awareness by engaging with
literally tens of thousands of people, influential local leaders and
politicians, and millions more via live broadcast on TV. Additionally,
in January 2013, MTV-EXIT made roadshows and youth engagement
activities in several cities in Indonesia such as in Pontianak (West
Kalimantan), Lombok (West Nusa Tenggara), and Sukabumi (West Java).
Education on human trafficking is especially important to facilitating
change in this region, where trafficking is so widespread. This program
has been extremely successful and an important part of our successes in
Southeast Asia.
                               conclusion
    As we look toward the future, our Bureau and embassies and
consulates in the EAP region are committed to working with foreign
governments to help them more effectively combat human trafficking. EAP
and the TIP Office will continue to collaborate to assess the
situation; develop programs and diplomatic strategies to better combat
trafficking; and encourage governments to take action to prevent
trafficking, protect victims, and prosecute traffickers.
    Mr. Chairman, I thank you for the opportunity to appear before you
today to discuss human trafficking in Asia-Pacific. I look forward to
answering any questions the subcommittee may have.

    Senator Cardin. Thank you, Secretary Marciel.
    Ambassador CdeBaca.

 STATEMENT OF LUIS CdeBaca, AMBASSADOR AT LARGE FOR THE OFFICE
 TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT
                    OF STATE, WASHINGTON, DC

    Ambassador CdeBaca. Thank you, Chairman Cardin, for the
opportunity to speak with you today.
    And I--just a note of personal privilege--Scot Marciel, not
only with the MTV Exit Program, but also in his time both
within EAP and at post, has been a real leader on this. I just
wish that we had a photo of him at that MTV concert out on the
stage to offer for the record. [Laughter.]
    A few weeks ago, the Secretary of State released the 14th
Annual Trafficking in Persons Report, what Secretary Kerry
called a ``Roadmap for the Journey to Freedom.'' This roadmap
sets forth progresses and challenges in fighting modern slavery
in 188 jurisdictions, including 29 in the Asia-Pacific region.
And, while there is progress, with more than 20 million
estimated trafficking victims in the world and fewer than
45,000 victims identified, we know that we all have a lot more
to do. In EAP, we see both sex trafficking and forced labor,
even state-sponsored forced labor in the recruitment and the
use of child soldiers in some places, and pervasive
victimization of migrants seeking better jobs. These are real
people, people trapped in slavery, people in the sights of
traffickers, people recovering from the trauma of being
trafficked. They do not just impact our foreign policy, they
touch our conscience.
    As you may know, we are working closely with the Vatican as
they intensify their engagement on this scourge. And the words
of Pope Francis, I think, are very appropriate, when he says
that ``Human trafficking is an open wound on the body of
contemporary society.''
    So, the United States is focused on identifying and seeking
justice for victims, supporting survivors, and creating a world
where people are no longer subjected to human trafficking. And
that means developing common standards and getting governments
to step up.
    While my written testimony deals in the efforts of a number
of jurisdictions in EAP, along with several U.S.-funded
initiatives to combat trafficking in the region, I will
highlight a few of those efforts and initiatives today.
    First, some laudable efforts. The Republic of Korea, Papua-
New Guinea, and Solomon Islands all passed legislation to
strengthen their legal frameworks. The Federated States of
Micronesia initiated a landmark prosecution of a trafficker and
implemented a national action plan.
    As you mentioned, Senator, we welcomed the formal
abolishing of the Reeducation Through Labor System. However, we
remain deeply concerned that forced labor persists in some
government institutions in China, including Reeducation Through
Labor facilities that have been reportedly converted into
different types of detention centers. And so, we will be
keeping an eye on that. However, there were other issues in
China, as well. A second 5-year plan came into operation that
included labor trafficking and covered men victims, the
accession to the Palermo Protocol, all good signs of forward
progress.
    Elsewhere, we see mixed efforts. The Government of Burma
undertook efforts to improve anti-trafficking response, but
some military officials and insurgent militia continue to
subject civilians to forced labor and to recruit child
soldiers. We are lending our support to help Burma improve its
anti-trafficking response through training and a joint action
plan on trafficking in persons.
    While we saw an uptick in public commitment by the
Government of Japan this spring, we are concerned about the
steady decline in the number of victims identified in the last
9 years in Japan, despite no evidence of a diminution in the
scale of the problem. Thirty-one sex traffickers convicted in
2013, but no labor traffickers. And we know that the
traffickers continue to use the Industrial Trainee and
Technical Internship Program there to subject victims to forced
labor. We will work closely with the Japanese Government to
enhance oversight of this program and improve their anti-
trafficking response.
    And then there are some countries that did not demonstrate
increased efforts to combat trafficking, countries that were
downgraded. You mentioned Malaysia and Thailand. In Malaysia, a
flawed victim protection regime that detains foreign
trafficking victims in government facilities, sometimes for
more than a year. We call upon the government to amend its laws
and regulations, to improve victim care, to enable all
trafficking victims to work and travel outside of these
facilities. And we have heard plans announced to allow certain
restrictions to be lifted. We hope that we can work with them
to turn those promises of future action into credible results.
    In Thailand, widespread official complicity continues to be
a longstanding problem that remains a significant obstacle to
anti-trafficking progress. And whether it is in the fishing
industry, forced labor among migrant workers, or the sex
industry, the magnitude of the human trafficking problem
continues to be of great concern.
    I want to close, Senator, with a positive story, though,
this year's report on our 10 trafficking-in-persons heroes who
are making a difference on the front line. One such hero, Van
Ngoc Ta, has personally assisted over 300 trafficking victims
of forced labor in Vietnam and sex trafficking victims who had
been taken to China. His team works with Vietnamese authorities
to liberate victims and then represents them in court against
their traffickers. I would offer for the record a recent
article about Mr. Van's work. But, his efforts show that
homegrown civil society actors can move governments in
Southeast Asia and elsewhere, and are an inspiration to us all.
    We remain committed to supporting such heroes on the front
lines to support and sometimes nudge governments to prevent,
protect, and prosecute for our shared goal: a world without
slavery.
    [The prepared statement of Ambassador CdeBaca follows:]

             Prepared Statement of Ambassador Luis CdeBaca

    Chairman Cardin, Ranking Member Rubio, members of the subcommittee,
thank you very much for giving me the opportunity to share with you the
Department of State's latest findings on human trafficking in East Asia
and the Pacific Islands. A few weeks ago, Secretary of State John F.
Kerry released the 14th annual ``Trafficking in Persons Report.'' This
year's 432-page volume discusses the progress and ongoing challenges in
fighting trafficking in persons in 188 countries and territories,
including 29 countries and territories in the Asia-Pacific region. The
world has come a long way in our shared fight against human trafficking
over the past 14 years. But, with more than 20 million estimated
trafficking victims around the world and fewer than 45,000 victims
identified in 2013, we have much more work to do.
    Today, I will discuss human trafficking in East Asia and the
Pacific, what governments in the region are doing to combat it, and how
the Department of State is supporting those efforts. The Department's
efforts in Asia require the close collaboration of the Office to
Monitor and Combat Trafficking in Persons (the TIP Office) and the
Bureau of East Asian and Pacific Affairs. We are grateful for the
leadership provided by Assistant Secretary Danny Russel, Principal
Deputy Assistant Secretary Scot Marciel, and all of the chiefs of
mission throughout the region. Their partnership and collaboration, and
the work of their staff on this issue, are making our diplomacy and
programs to combat trafficking and assist victims in Asia effective.
                           regional overview
    A staggering portion of the world's trafficking victims come from
East Asia. These victims include men, women, and children subjected to
both forced labor and sex trafficking. Forced labor occurs in the
fishing, agriculture, mining, textile, and domestic service sectors,
and in factories that produce other goods. In parts of East Asia, there
is also state-sponsored forced labor, including by state militaries.
Migrant workers are especially vulnerable to forced labor and debt
bondage--in their home countries or upon traveling to other countries
for employment. The fishing industry continues to be plagued with
forced labor and is in need of additional law enforcement action and
anticorruption efforts to curb abuses. Girls and women are forced into
prostitution in bars, brothels, massage parlors, and other venues. Sex
tourism in some countries fuels the sex trafficking of children.
Governments in the region have typically had more success in
identifying victims of, and prosecuting cases related to, sex
trafficking than labor trafficking; however, more must be done to
combat both forms of modern slavery.
    Our thematic focus for the 2014 ``Trafficking in Persons Report''
is the ``Journey from Victim to Survivor.'' The impact of human
trafficking is horrifying; those who escape modern slavery struggle to
recover, heal, reclaim their lives, and become survivors. It is not an
easy path, and true recovery is far from guaranteed. Governments must
devote more resources and attention to help victims recover, restore
their inner strength and personal voice, and return to their
communities as survivors.
    Partnerships between governments and the private sector can
facilitate this process. As an example, shortly after President Obama's
and Secretary Kerry's March 2014 visit to the Vatican, the State
Department TIP Office announced its plans to partner with the U.S.
Conference of Catholic Bishops and the Apostleship of the Sea to
coordinate efforts by the Catholic Church and its partners to combat
human trafficking. The project will focus on ramping up capacity around
the world to identify and assist victims, particularly those trafficked
in maritime labor, which is a significant problem in East Asia and the
Pacific.
               accomplishments and areas for improvement
    Over the past year, governmental efforts to eliminate human
trafficking and assist victims varied dramatically across countries in
East Asia and the Pacific.
    Some countries and territories undertook laudable anti-trafficking
efforts. The Republic of Korea, Papua New Guinea, and the Solomon
Islands passed legislation to strengthen their anti-trafficking legal
frameworks. The Government of the Federated States of Micronesia
initiated a landmark prosecution of an alleged trafficker, declared a
national day to spread awareness of trafficking, and implemented a
national anti-trafficking action plan. The Chinese National People's
Congress ratified a decision to abolish the ``Re-education through
Labor'' (RTL) system, a systemic form of forced labor that had existed
in China for decades. Although some media and NGOs report that the
government ceased operations at many RTL camps, it has also been
reported that the government converted some RTL facilities into
different types of detention centers, some of which continue to employ
forced labor. We welcome China's decision to abolish the RTL system and
its subsequent steps to shutter RTL facilities, but remain deeply
concerned that forced labor persists in some government institutions.
    Other countries in the region demonstrated mixed efforts to combat
trafficking over the past year.
    The Government of Burma undertook efforts to improve its anti-
trafficking response, but some military officials and insurgent militia
continued to subject civilians to forced labor and recruit child
soldiers. Burma remains the only country in East Asia on the U.S.
Government's Child Soldiers Prevention Act list. We welcome the
military's release of 206 children illegally recruited into its ranks
over the reporting period, and encourage the Burmese military to
continue to take further steps to fulfill commitments it has made under
the joint U.N. action plan to end child soldier recruitment.
    The United States is partnering with Burma to improve its anti-
trafficking efforts, formalized in 2012 through the U.S.-Myanmar Joint
Plan on Trafficking in Persons. In support of this joint plan, the TIP
Office is funding a $500,000 project to help strengthen Burma's new
Anti-Trafficking in Persons Division in the Ministry of Home Affairs by
sharing best practices in the area of law enforcement investigation and
victim-witness interviewing. Later this year, the TIP Office plans to
fund a $700,000 project that will contribute to prevention of
trafficking and protection of victims by strengthening institutional
and NGO capacities. In this way, the intervention will respond directly
to the priority of the Joint Plan of Action to ``encourage greater
civil society participation in anti-trafficking efforts throughout the
country.'' Funding anti-trafficking efforts in Burma will continue to
be a priority in FY 2015.
    In Cambodia, the government developed guidelines for a
standardized, nationwide system for the proactive identification of
victims among vulnerable groups. Unfortunately, the government
prosecuted and convicted fewer trafficking offenders and identified
fewer victims than it did in the previous year. Effectively finalizing
and implementing the guidelines will be critical to Cambodia's ability
to identify more victims, assist them, and prosecute their traffickers.
    We are also concerned that Japan has experienced a steady decline
in the number of trafficking victims identified over the past 9 years,
despite no evidence of a diminution in the overall scale of the
problem. Traffickers continue to use the government's Industrial
Trainee and Technical Internship Program (TTIP) to subject victims to
forced labor, and the program lacks adequate government oversight. The
Japanese Government convicted 31 sex traffickers in 2013--but no labor
traffickers. It is working on initiatives to enhance oversight of the
TTIP and improve its anti-trafficking response. We look forward to
working with the Government of Japan over the coming year as they
implement these proposed reforms.
    A few countries did not demonstrate increased efforts to combat
trafficking over the past year, and they were downgraded in the 2014
TIP Report.
    The Government of Malaysia decreased its anti-trafficking law
enforcement efforts and made minimal efforts to improve its victim
protection regime. In Malaysia, the greatest need is to reform this
flawed victim protection regime that detains foreign trafficking
victims in government facilities for periods of time that sometimes
exceed a year. The Government of Malaysia has announced plans to allow
a limited set of foreign trafficking victims to have freedom of
movement and the right to work, and for NGOs to operate a government
funded shelter. We encourage the government to amend its laws and
regulations to improve care for victims and enable all trafficking
victims to travel and work outside government facilities. Malaysia
identified significantly fewer victims in 2013 than in 2012 and only
convicted nine traffickers despite the country's vast trafficking
problem. Improving Malaysia's victim protection regime would also be
expected to lead to more victims coming forward and providing testimony
that leads to more successful prosecutions.
    We have been committed to helping Malaysia achieve these goals. The
TIP Office is currently programming $750,000 to assist NGOs' anti-
trafficking programming in Malaysia, and plans to fund training for
Malaysian special prosecutors and judges. We continue to encourage the
Government of Malaysia to remove restrictions on NGOs assisting
trafficking victims.
    Despite improving its anti-trafficking data collection and
prosecuting and convicting traffickers, the Government of Thailand
failed to address key shortcomings in its anti-trafficking efforts, and
its actions continued to be insufficient given the magnitude of the
human trafficking problem in Thailand. During the period covered by the
2014 Trafficking in Persons Report, the Thai Government made few
efforts to address forced labor and debt bondage among foreign migrant
workers--including in the fishing industry, which has a significant
proportion of trafficking victims in Thailand. It failed to address
widespread official complicity in human trafficking. We continue to
call on the Thai Government to take significantly greater steps to
protect foreign migrants--including in the fishing and shrimp
industries, to punish traffickers who enslave foreign workers, and to
prosecute officials complicit in trafficking.
    We welcome continued engagement with the Thai Government to address
our shared goals: to assist victims, convict traffickers, and prevent
future instances of human trafficking from occurring. The TIP Office is
currently programming $1.2 million in Thailand to support anti-
trafficking activities. This support includes funding to conduct
prevention and protection-related activities, especially among tribal
populations; enhance Thailand's Department of Special Investigation's
ability to investigate trafficking cases; raise awareness and advocate
for justice on high-level trafficking cases; coordinate government and
NGO activities to combat human trafficking in the nine provinces of the
upper northern region of Thailand and their associated Burmese and Lao
border regions; and support coordination among the heads of specialist
anti-trafficking units in ASEAN. Before the end of the current fiscal
year, the TIP Office expects to provide an additional $687,510 to
support protection and prosecution-related activities and we anticipate
providing continued assistance, pending congressional appropriation in
FY 2015 and beyond.
    In Laos, the government relied almost entirely on local and
international organizations to implement anti-trafficking programs. It
continued to prosecute trafficking offenses and convict traffickers,
but did not make proactive efforts to identify victims of trafficking.
We continue to encourage the government to expeditiously approve
Memoranda of Understanding with anti-trafficking organizations to more
effectively combat trafficking and coordinate government and NGO
efforts. In FY 2010 and FY 2013, our office provided $1 million to the
UNODC to assist the Government of Laos with legislative reform of its
anti-trafficking law.
    The Government of Timor-Leste did not investigate or prosecute any
trafficking offenses or convict any traffickers. The government's
victim identification efforts remained inadequate, and long-awaited
anti-trafficking legislation remained pending.
    Finally, one country in the region has continually failed to combat
trafficking and has subjected its citizens to trafficking. North Korea
did not demonstrate any effort to address human trafficking through
prosecution, protection, or prevention measures. The government
participated in human trafficking through its use of domestic forced
labor camps and its provision of forced labor to foreign governments
through bilateral contracts. North Korea also failed to protect victims
of trafficking when they were forcibly repatriated from China or other
countries.
                            the way forward
    Over the past few weeks, the 2014 ``Trafficking in Persons Report''
and country tier rankings have received considerable international
attention. The report is an important tool to better understand human
trafficking in 188 countries and territories around the world and to
promote ways to better combat this global problem.
    In accordance with the Trafficking Victim's Protection Act, as
amended, each country and territory in the report is assigned a tier
ranking based on its government's compliance with certain minimum
standards to eliminate trafficking. Tier rankings are important. But
they are a means to an end, not an end unto themselves. We must not
lose sight of the true goal: stopping modern slavery and helping
victims of human trafficking. This includes victims like the six young
women rescued from a bar by one of our grantees during the devastation
of Typhoon Nari in the Philippines, where they had been trafficked and
sold as sex slaves. After the rescue and with the storm raging and the
power out, our grantee began the interview process by flashlight. The
grantee reported that a targeted investment in law enforcement has
brought about a nearly 80-percent reduction in the number of girls
available for sex in the metropolitan area of Cebu. We agree with our
grantee's assessment: ``That kind of dramatic reduction can be
replicated. It must be replicated.'' Only with such efforts, and
concrete programs to help victims find their voice and reclaim their
lives, can we help victims become survivors.
    During the rollout of the 2014 report, we honored 10 ``Trafficking
in Persons Report'' Heroes from all over the world who are helping to
make a difference. One Hero from Vietnam, Van Ngoc Ta, has personally
assisted over 300 trafficking victims of forced labor in Vietnam and
sex trafficking in China. Mr. Van's team works with Vietnamese
authorities to arrange and implement a plan to facilitate victims'
release and represents the victims in court against their traffickers.
Mr. Van's tireless efforts have had an impressive positive impact on
communities in Vietnam in which he conducts awareness campaigns and
meets with leaders and families to educate them on prevention.
    These are the types of efforts that must be duplicated around the
world. I will now turn to my colleague Principal Deputy Assistant
Secretary of State Scot Marciel, with whom I work closely on efforts to
combat trafficking. He will discuss U.S. diplomatic engagement on this
issue, which is critical to advancing rule of law and human rights as
important pillars of our foreign policy.

    Senator Cardin. Well, let me thank both of you, not just
for your testimony, but for your commitment in this area. It is
well known, and we very much appreciate the fact, that you have
been very strong in raising these issues wherever you travel,
and making it clear that we expect greater progress. So, I
start with that.
    But, my first question deals with whether we are making
progress or whether we are moving in the wrong direction. And I
say that because there were four countries that were downgraded
in this report, that are in our region. Only two countries were
upgraded. We mentioned China. Let me also mention Micronesia
moving from Tier 2 Watch List to Tier 2, which is certainly
progress, and we very much acknowledge, in both countries, that
progress was made in the right direction.
    I have already acknowledged that we have had countries that
have been downgraded. Four countries were downgraded in our
region: Laos, Malaysia, Thailand, and Timor-Leste.
    There were 10 countries that are on Tier 2 that remain on
Tier 2, so no progress made. There are four countries that are
on Tier 2 Watch List, no progress made: Burma, Cambodia,
Marshall Islands, and Solomon Islands. Now, if no progress is
made, those countries will be downgraded to Tier 3, as required
under the law.
    So, my question is, Are we moving in the right direction?
Because it looks like the TIP Report would indicate that we
have not made progress, when, in fact, there are more countries
in worse condition this year than they were in the prior
report.
    Ambassador CdeBaca. Senator, I actually think that we have
seen progress. And some of it is reflected in the report as far
as the tiers are concerned. But, even in countries that did not
necessarily raise up in a tier, we have seen progress. I hate
to use the American grading system as the way that we look at
it, but, you know, there is a difference between a ``B'' that
is an 80 and a ``B'' that is an 89. They are still both ``B's''
on your report card, but, when you see a student that is
starting to make that kind of progress, you can look at that
trajectory in a good way.
    I think that is what we are seeing with a number of the
countries in the region, and especially with the passage, for
instance, of the new trafficking legislation in Papua-New
Guinea. It did not get quite through the gazetting process, it
did not get through the entire process, but is something that
we will be looking at in next year's report. And that is a
country that is on Tier 3. And yet, we see the government
starting to engage. We see that kind of energy, we see an
openness, not just to U.S. involvement, but Australian and
others who are willing and able to help. So, I think that that
is one of the places that we are really looking at.
    I think that what we have seen historically is that
governments can look at their situation and make a decision to
change. We saw that with Vietnam, some years ago. And, at this
point, I think that we very much see them as a solid Tier 2
country. There was a few years when we would look at it and,
frankly, we would be wondering, Is this still really a Tier 2
country? Should they be back to Tier 2 Watch List? Kind of,
where are they? We are seeing that solidifying as they are
starting to work with civil society organizations like Blue
Dragon, as they are starting to look at labor trafficking
instead of just sex trafficking.
    So, I think that we are seeing what, to us, looks like
progress. I think that the four downgrades actually--in some
ways, not only does that reflect the lack of progress in some
of those countries, but it reflects good, solid reporting on
the part of our Embassies and otherwise. As we get more
information, as we are engaging with them, we are learning more
and more about the trafficking situation in these countries.
So, the notion of downgrades is not something that we
necessarily see as a failure in the region. We see it as honest
reporting that allows us and you and others to make a
difference. And we have already heard that, in the press
coverage, in some of the public statements that we are seeing
out of Malaysia and other places, a commitment to going out and
working.
    Senator Cardin. Well, I would just observe, we absolutely
believe that the TIP evaluations are honest reporting and
honest grading. This is accurate grading that we expect that
will continue.
    But, having said that, it is disturbing to see, with all of
the global attention on trafficking--and there has been a
tremendous focus on trafficking issues globally, not just the
United States of America--and with all the technical support
that is now available to deal with improving the trafficking
issues, it is disturbing to see, in the jurisdiction of this
subcommittee, East Asia and the Pacific, that, with all the
priorities being given, we have not made the type of
advancements that I think is expected.
    Now, there are three countries here that are TPP aspirants.
Two have dealt with their trafficking issues. Vietnam has been
under tremendous focus in this committee, and they have
consistently been a Tier 2 country. Now, we would like to see
them at Tier 1, but they have made progress on the trafficking
issues. I was in Vietnam this year, and we talked about the
trafficking issues, and the country is very much focused on
dealing with the issues.
    Brunei, which has serious human rights issues in
trafficking, they have been consistent.
    Malaysia moved in the wrong direction. What does that mean,
as far as they are ready for TPP? Are they ready for TPP, if
they cannot deal with their trafficking issues? It raises a
question to me.
    So, Secretary Marciel, are we making progress? Are we
moving in the wrong direction?
    Ambassador Marciel. Thank you, Mr. Chairman.
    Clearly, we have a lot more work to do in Malaysia; and,
more importantly, the Malaysians have a lot of work to do on
trafficking, particularly their treatment of trafficking
victims. It is a big priority in the relationship, for sure.
    In terms of TPP, one of--I mean, the whole idea of TPP, as
you know, in addition to opening markets, is setting high
standards, including in labor. And, I mean, obviously, the
negotiations are still underway, but the intent is to have a
very strong labor chapter in there. So, we actually think the
TPP process should reinforce--even though it does not have a
TIP chapter, per se, it does have very high standards,
including on labor. So, I think it should reinforce the effort.
But, clearly, the Malaysians have a lot more to do.
    Senator Cardin. One more observation on that. Many of us
support a very high standard--ILO standards in regards to labor
in TPP, but we also want to see that within the core agreement,
with enforceability within the core agreement, which we did not
have in CAFTA. So, the TIP Report and the spotlight of the TIP
Report was not enough to get Malaysia at the level that it
needed to be. It is just a clear signal, at least to this
Senator, that the TPP needs to have enforceable labor
commitments, because we have not been able to make the progress
by just putting a spotlight through the TIP Report.
    Let me ask one more question. Senator Rubio had explained
to me that he was going to be late getting here, for personal
reasons, and I fully understand that. I want to give him a
moment to catch his breath and thank him so much, because he
has been one of the real leaders, in the United States Senate,
on trafficking issues and on human rights issues in East Asia
and the Pacific, and I very much appreciate his commitment to
our mutual agenda to underscore and highlight these matters.
    I was in Moldova last week, and their leadership is really
committed to human rights issues, and I think they have made a
lot of progress. I know it is not one of our countries. But, it
was interesting. They identified, as the core area for
improvement on trafficking, would be to deal with corruption.
And they have dealt with corruption. They have put some of
their judges in jail because they were not enforcing the laws
dealing with trafficking. Those who trafficked knew they could
get away with their activities. But, Moldova has made a
commitment to change that.
    In the countries of East Asia and Pacific, particularly
those that need to improve on trafficking, they have
significant challenges on dealing with corruption. How well is
that understood in these countries, that in order to deal with
modern-day slavery, they have to deal with the corruption in
their system?
    Ambassador Marciel. Well, Mr. Chairman, I will start.
    I think, for a lot of these countries--and I have spent
quite a bit of time in many of them--corruption is a huge
issue. In some cases, it is arguably the biggest issue in the
eyes of the people, not only because of the impact on
trafficking, but the impact on people's daily lives, writ
large, and certainly on rule of law and people's desire for
justice. So, I think the problem of corruption is very widely
understood, and there is--in the places I have been, there is,
you know, tremendous public pressure and societal pressure on
governments and political leaders to improve, to clean up on
corruption, including because of its relationship to
trafficking in persons.
    In my experience, it is a difficult challenge to tackle. It
requires a tremendous amount of political will and a lot of
effort over time. But, it is critical, not only on the
trafficking front, but if these countries are going to achieve
economic development and the justice that their people demand.
    Senator Cardin. Thank you.
    Senator Rubio.
    Senator Rubio. thank you, Mr. Chairman, for holding this
hearing, and both of you for being here.
    I want to just open--and I apologize for being a few
minutes late, but let me just begin with a statement about all
this.
    Human trafficking, of course, is a monstrous crime which
plagues the entire world, including, quite frankly, my home
State of Florida, which is one of the top three destinations
for human trafficking in the United States. Unfortunately, the
populations of East Asia and the Pacific region are
disproportionally affected by trafficking. The International
Labor Organization estimates that there are currently 7.9
million victims of forced labor in the Asia-Pacific region. The
recently released 2014 Trafficking in Persons Report includes
four Asian countries in the worst-of-the-worst Tier 3 category:
Malaysia, North Korea, Papua-New Guinea, and Thailand. Numerous
other Asian nations find themselves near Tier 3, in the Tier 2
Watch List. That includes Burma, Cambodia, China, Laos--the
list goes on and on.
    Today, we will explore, and have been exploring, the causes
of human trafficking in the region, as well as the governments
in that region and the responses that they have had in
compliance with the laws and the expectations upon them. And
the United States has always been, and will continue to be, a
leader in combating modern-day slavery in the world. And I
appreciate the work both of you do with regards to that. We
must highlight this issue, hopefully at every level, when
working on a bilateral and multilateral levels, with countries
in this important region.
    And then, I want to thank you, Mr. Chairman, for holding
this hearing on this important topic. And I want to thank the
witnesses for being here.
    I was going to start with Secretary Marciel. I wanted to
ask you, How does our anti--and you may have answered this
already, so I apologize, but--How does the anti-trafficking
platform--how does that work with the other priorities that we
have in the region, such as defense or economic issues? How do
we coordinate those sometimes competing interests, I suppose?
    Ambassador Marciel. Thank you, Senator Rubio.
    Yes, it is a very good question and a challenge for us. I
mean, I guess what I would say is, in all of our relationships
in the region, we obviously focus a lot on the diplomatic
relationship, building people-to-people ties, trade relations,
all of these sorts of things. But, in every country where we
see problems on human rights and/or trafficking, more
specifically, this is another important piece of what we do,
and we make clear, in our discussions with government
officials, that, you know, we want to build a closer
relationship, but our ability to do so depends certainly, to a
significant extent, on their willingness and ability to address
these concerns, whether it is broad human rights or trafficking
in persons. And then, in addition to that, in many of these
countries, we will have programs--either, you know, training
prosecutors or police or judges, or often working with civil
society, because civil society's role is critical in this, both
exposing the problem, but putting pressure on governments to do
more, but then, actually helping victims. So, it is a
combination of diplomatic pressure and making it a priority
plus specific programs. And I know Ambassador CdeBaca can talk
more about that.
    Ambassador CdeBaca. Senator, I think that one of the things
that we are really looking at is how it works with our
priorities both around rule of law and human rights, and
bringing those two together. I think that often human
trafficking has been seen in the--especially in Southeast
Asia--as a transnational problem of moving people. And one of
the things that I think that we have seen often because--just
to get into the weeds--it is the same reporting officers in our
embassies that are doing the human rights report, as well as
the trafficking report. It brings a little bit of a harder edge
to the human rights approach, and it brings a little human
rights to the law enforcement approach. And I think that that
has enabled us to have a conversation that is moving into each
of these countries. We are starting to be able to deal with the
Thai person who is enslaved in Thailand, the Vietnamese person
enslaved in Vietnam. Whereas, 5 years ago, I think a lot of the
countries were only focused upon the cross-border.
    What that is doing is, it is allowing us to introduce other
aspects of rule of law, whether it is the corruption issue,
whether it is general judicial training, access to justice, et
cetera. And I think that that kind of lifts all boats, that
rising tide.
    So, we are trying to make sure that it is incorporated in
that way.
    Senator Rubio. Let me ask you this. I have gotten--a number
of NGOs have expressed concern that, during the Trafficking in
Persons Report, the regional bureaus include political
considerations in the tier rankings and press the TIP office to
not downgrade certain countries. Is that accurate? Is that
happening?
    Whoever has the answer.
    Ambassador Marciel. Senator, actually, Ambassador CdeBaca
and I sat down, on a number of occasions after our teams had
worked through these, to go through the countries. There were,
you know, some countries that we all agreed clearly fell into
one category, and there were others that were a little bit
closer. You know, was it a strong ``B'' or a weak ``A minus,''
as Ambassador CdeBaca said? And, basically, we went through and
discussed--I would not say ``debated,'' but just discussed what
the countries have done and what they had not done. And our
conversations were all about what had been done on trafficking.
So, we were not saying, ``No, but--you know, that, yes, they
did not do anything on trafficking, but they are good friends,
you cannot downgrade them.'' We did not have that conversation.
It was purely----
    Senator Rubio. So, the political considerations are not
used in the TIP process to distort the tier rankings.
    Ambassador CdeBaca. I think actually they--we do--we,
collectively, the State Department, do a pretty good job of
keeping this focused on trafficking. And it helps that there is
real criteria, so you cannot really fudge it, in that sense.
    Senator Rubio. Because I am--you know, what I am getting--
I mean, some people are concerned--and I am glad to hear your
statement here today; it is important to have that on the
record--that, in fact, there are some countries, where, because
of certain geopolitical issues, there might be some internal
pressure not to downgrade them or to move them off their
current tier ranking. But, your statement here today is that
because of the criteria that is in place, that is not
happening.
    Ambassador CdeBaca. That is correct, Senator. And I think
if you look at the fact that long-time friend and treaty ally
Thailand was downgraded, as well as Malaysia, where the
President had just visited, have a very good relationship--they
were both downgraded.
    Senator Rubio. Okay.
    And, Ambassador, let me ask this question about China. And
again, I apologize, you may have answered this already before.
In the 2013 report, China was automatically downgraded to the
lowest level of Tier 3 because it had been on the Tier 2 Watch
List for 2 consecutive years--and, by the way, waived for 2
more years--and had not made any improvements. In the 2014
report, they were upgraded back to the Tier 2 Watch List. So,
what exactly did China do--what improvements did they make in
that reporting period that allowed them to be upgraded to Tier
2?
    Ambassador CdeBaca. Senator, there are a few things that we
were really looking at last year, especially the Reeducation
Through Labor Camps, the state-sponsored forced labor that we
saw in China. And that was one of our biggest recommendations
for the Chinese. And we saw movement from them this last year.
    Senator Rubio. I am sorry to interject. Is that actually
happening, or are they running that program under a different
name? I mean, is there real evidence that they have dismantled
those programs?
    Ambassador CdeBaca. We have seen evidence that they have
dismantled the main program, but we are concerned that it not
be shunted over to other reeducation camps, whether it is drugs
or other morality offenses, or things like that. And it is
something that we are very much looking at very closely,
because I think we share the skepticism, no--to make sure that
this is a trust-but-verify.
    Senator Rubio. Okay.
    Ambassador CdeBaca. On the other hand, we see other things
that they have done, such as acceding to the Palermo Protocol,
the issuance of a new 5-year plan, that directly went to some
of the issues that we had raised. Their previous structure did
not allow for the identification of male victims at all, so
they were having cases where men would be brought out of--
mentally retarded or drug-addicted men brought out of a
brickkiln, where they had been held for 5 years, kidnapped off
the street, and they were not charging that as trafficking,
because their definitions, their laws, just did not see those
men as trafficking victims, because they were not women being
taken across an international border. They have changed that
now. They have changed the structure so that you are bringing
in the All China Women's Federation to do victim protection at
the beginning of the cases.
    All of those, we think, are enough of a change that we did
not feel that a Tier 3 was appropriate for China. We are not
saying, however, that this is a feel-good story. This is not a
Tier 2, this is certainly not a Tier 1. This is just enough to
come off of Tier 3, and we are going to be really looking at
this.
    Senator Rubio. Let me just highlight one more thing that I
am hearing from NGOs with regards to China. And that is that
many students from Chinese vocational schools are being forced
to work in factories as interns, performing work that is not
related to their major and, quite frankly, has no educational
benefit. These students risk not receiving their diploma if
they refuse to work. Is that something that we are looking at
and taking into account, that they are using these sorts of
forced labor situations hidden and disguised as some sort of
vocational training program?
    Ambassador CdeBaca. We have not seen it necessarily rise to
the level of abuse that we have expressed concern about in the
Japanese Training and Technical Internship Program or in the
Uzbek use of the students for the cotton harvest, and others.
But, it is something that we are looking at and something that
we continue to keep an eye on.
    Again, we do not want there to be ways to try to get around
getting rid of the RTL camps by coming up with other forced
labor situations.
    Senator Rubio. And is that okay?
    In your testimony, you noted that foreign governments tend
to focus--and I think this was you--yes, Ambassador, it was you
that said this in your testimony, that foreign governments--and
you alluded to a it, a second ago--they tend to focus their
anti-trafficking efforts on sex trafficking, which is
horrifying, but there is also the issue of labor trafficking
that has not--sometimes people do not think about that as
equally horrifying, in many cases. So, how are we engaging with
foreign governments--and you started to touch upon that a
moment ago--can you describe how we engage with foreign
governments to explain that they are--that--because that is
where I think you are running into a lot of the situations you
just outlined, a moment ago. What are we doing to kind of
create more awareness on their part that labor trafficking is
also trafficking--that sex trafficking is horrifying, and we
want to put a stop to it, but also the labor trafficking
element of it, as well?
    Ambassador CdeBaca. I think this is actually the culture
change that we are moving into with these governments. A lot of
folks in Southeast Asia have had a real learning curve,
especially around the domestic servant issues, whether it is in
Singapore, Hong Kong, other places, Malaysia, where there is
such a strong culture of bringing in foreign domestic servants.
Those cases often, when they manifest, to the degree that they
are ever dealt with, get dealt with as assault cases. And so,
we have been going in, almost on a case-by-case basis, and
doing the legal arguments with these governments to say, ``No,
this case, under international law, is a trafficking case.''
    What we have also been doing, frankly, is to then harness
the anti-trafficking community in the United States so that we
end up getting experts, whether it is folks from the Freedom
Network or other consortia of the people who are doing the hard
work, and we send them out to the countries. Some of the folks
from the Florida coalition, for instance, have been able to
travel in that way. And I think that what it is doing is, it is
starting to get to the prosecutors and the police. I think the
next step is going to be the judges. The judges do not, still,
seem to understand this. But, we are kind of lining them up and
knocking them down, one by one.
    The Thailand downgrade, I think, will speak volumes in the
region, because we made it very clear in the narrative that
there had been work done, over the last year, against human
trafficking. It just had been almost exclusively done in the
sex industry. And, while we want that, and while we laud the
people who are doing that in Thailand, the crushing numbers
actually show up in forced labor. And the fact that we are
willing to downgrade such an important country largely over
labor trafficking, hopefully sends that signal.
    Senator Rubio. I just have a brief comment and a quick
question.
    Senator Cardin. Sure.
    Senator Rubio. No, just one more point. You just spoke
about the Thailand thing a moment ago. Just here domestically,
I think one of the most important things we need to continue to
do--and this is more of an editorial statement--is, we need to
make it very clear there is nothing culturally acceptable about
going to these other countries, as Americans, and participating
in these sorts of things. I mean, there is this attitude that I
have run into now and then, where things we would never do in
this country is okay if we do it somewhere else, because in
those countries it is culturally acceptable in some way. And I
think you have seen this reflected sometimes in popular
culture, but even anecdotally among people.
    And I think one of the things we have to make very clear,
that there is nothing acceptable about Americans going abroad
to one of these countries and going into brothels at all, not
to mention those that have people underage working there. And I
think that is important to point out, because we do find the
presence of Westerners and Americans frequenting some of these
places that we have talked about in the sex trafficking
industry, and we should truly try to stigmatize that in our
society.
    The last question I had--this is for you, Mr. Secretary--as
the United States considers increased military engagement with
Burma, how is the issue of child soldiers factoring into those
conversations? And will that be a priority for us, moving
forward, as we have those conversations on increasing that
military relationship?
    Ambassador Marciel. Senator, yes, very much so. There is a
lot that we want the Burmese military to do as part of the
country's broader reform effort, and we have highlighted to
them the issue of child soldiers, as well as use of forced
labor. We have seen some movement--I think there were a couple
hundred child soldiers who were released--and a willingness to
talk about it. A lot more that needs to be done. Our Assistant
Secretary for Human Rights, Tom Malinowski, along with our
Deputy PACOM Commander, General Crutchfield, were in Burma a
couple of weeks ago, met with the military and talked about a
range of human rights issues, including this. So, we have made
it very clear, this is hugely important, and we will continue
to do that.
    Senator Cardin. Senator Rubio, thank you for your questions
and your support here, and your leadership.
    You are absolutely right about being complicitous in
trafficking. And you are right about Americans traveling abroad
visiting brothels. We have taken strong leadership with our
military to make it clear that they cannot at all participate
in those types of activities, and that what it is doing is
undermining the security of the United States and the
principles that we believe in. That has been part of our
policy, and I thank you for underscoring that today.
    The challenge on forced labor is, How do you deal with
consumers who want to know if the products that they are
consuming have been produced, in part, by forced labor? And
that is an issue that we can all do a better job in figuring
out how we can connect consumers to what is happening so that
they are not participating in trafficking activities through
their purchases, or supporting it.
    I just want to underscore one point that you raised. And
that is the objectivity of the TIP Report. The two people who
are at the witness table have been critical in making it clear
that politics does not play a role in this evaluation, that
this is an objective test used to help countries get the help
they need to improve their record on trafficking. And this
report is very objective.
    Let me just read, from one Pacific country, the beginning.
It says, ``Is a source, transit, and destination country for
men, women, and children, both citizens and foreign nationals
subjected to sex trafficking and forced labor, including
domestic servitude. Trafficking can occur in both legal and
illegal industries or markets, including in brothels, escort
services, massage parlors, strip clubs, street prostitution,
hotel services, hospitality, sales crews, agriculture,
manufacturing, and janitorial services, construction, health,
and elder care and domestic service.''
    That is the beginning report on a Tier 1 country, the
United States. So, it is pretty clear that every country can
improve in its record.
    Well, let me just read from Malaysia, which is now a Tier 3
country and a TPP aspirant, ``Where Malaysia is a destination
and, to a lesser extent, a source and transit country for men,
women, and children subjected to forced labor, and women and
children subjected to sex trafficking, the overwhelming
majority of trafficking victims are among the estimated 2
million documented and 2 million or more undocumented foreign
workers in Malaysia. Foreign workers typically migrate
willingly to Malaysia from other countries in Asia, primarily
Indonesia, Bangladesh, the Philippines, Nepal, Burma, Cambodia,
Vietnam, and India, Thailand, and Laos, in search of greater
economic opportunity. Some of the migrants subsequently
encounter forced labor or debt bondage at the hands of their
employer, employment agents, or informal labor recruitments.''
    I mention that because Malaysia is an aspirant country for
TPP. And I must tell you, Secretary Marciel, yes, I believe we
can elevate that through a strong labor provision within the
TPP, but it has got to be enforceable. And I have underscored
that point. We have yet to enter into a trade agreement that
had enforceable labor provisions. We had labor provisions; they
have not been enforceable.
    So, I can tell you, this Senator is going to be watching
very closely, and the fact that we have not seen the type of
progress in Malaysia is of great concern to me.
    I want to ask one final question, if I might. And that is,
in Europe and Central Asia, the United States and Canada,
through OSCE, participate in a robust effort to elevate
trafficking and technical support to improve actions against
trafficking within the OSCE framework. And there is a formal
part of OSCE that deals with anti-trafficking measures.
    I do not see a similar commitment within the ASEAN nations.
Now, we are not a participating state. We do have observer
status, and we do participate, but not as a full member of
ASEAN. Could ASEAN be stronger in its commitments on dealing
with the trafficking issues? And what can the United States do
about that?
    Ambassador CdeBaca. I think that it could be, and we are
seeing a lot of energy for that among the different member
states. What the United States can and has done is, for the
first time now, we are actually bringing together the ASEAN
Secretariat on Human Trafficking, through the Transnational
Organized Crime efforts, with U.S. funding, to actually have
the beginning of a Secretariat for anti-trafficking work. It
kind of mirrors the early years of the Stability Pact Task
Force that then grew into the anti-trafficking unit at OSCE
headquarters. We are very pleased to see that the immediate
past Special Representative for Trafficking, Maria Grazia
Giamarinaro, is now going to be the United Nations Special
Rapporteur for Trafficking. So, that OSCE experience is going
to be available to the entire world through our support. But,
we are also then trying to replicate that model at the
beginning stage, in working with the folks at ASEAN. And, to
that end, we are in the planning stages of bringing folks
together during the Burmese Presidency to have a discussion
across ASEAN and with the United States and other supporters
this fall so that we can start working on it. I cannot
guarantee you that it will end up as formal or successful as
what we saw in the OSCE, but I think it is certainly a seed
that we can germinate.
    Senator Cardin. Thank you.
    Mr. Secretary.
    Ambassador Marciel. Mr. Chairman, if I could just add, in
addition to what Ambassador CdeBaca said, the ASEAN--first, I
agree, ASEAN can and should do more. I think they are beginning
to move--a little bit slowly, but moving. They are working on
drafting an ASEAN convention on trafficking in persons and a
regional plan of action. And we are engaging with them. When
Assistant Secretary Danny Russell met with his ASEAN
counterparts in Burma, I think it was a month ago, he raised
this issue, stressed the importance of it. And we are funding,
through Ambassador CdeBaca's office and the American Bar
Association, a rule-of-law initiative, a program to work with
ASEAN to help improve their anti-trafficking units.
    So, there is potential there, and they are beginning to
move down the path. But, they have a ways to go to catch up to
OSCE.
    Senator Cardin. I thank you.
    Senator Rubio?
    Let me thank both of you, again, for your commitment on
this issue and for your frankness with this committee. And we
very much look forward to working in partnership with you to
make progress to end trafficking, our modern-day slavery.
    Thank you.
    We will now move to our second panel. We have Ms. Neha
Misra, senior specialist for migration and human trafficking at
the Solidarity Center, AFL-CIO, an international workers'
rights NGO based in Washington, DC. Previously, Ms. Misra was
the deputy county director and program manager for the
Solidarity Center, Counter-Trafficking in Persons Project in
Indonesia and served as the director of the Solidarity Center
Democracy Project in Indonesia.
    We have, also, Mr. Jesse Eaves, senior policy advisor for
child protection at World Vision. He has worked at the World
Vision, focuses on issues of child protection, including child
soldiers, exploitation, child labor, child trafficking, and
child sexual exploitation.
    It is good to have both of you with us today. You have
heard our comments during the first panel, so I think you know
our concerns.
    As I have indicated before, your full statements will be
made part of the record. You may proceed as you wish.
    And we will start with Ms. Misra.

STATEMENT OF NEHA MISRA, SENIOR SPECIALIST, MIGRATION AND HUMAN
         TRAFFICKING, SOLIDARITY CENTER, WASHINGTON, DC

    Ms. Misra. Thank you very much, Senator Cardin.
    I just, first, wanted to start by not just saying thank you
for inviting us to testify today, but also thank you
specifically to the Senate Foreign Relations Committee and then
directly, Senator Rubio and yourself, Senator Cardin, for the
leadership that you have shown on addressing issues of human
trafficking. And, as you mentioned, not just issues of
trafficking for sexual exploitation, but also labor
trafficking. The committee and both of your leadership on this
issue is very much appreciated.
    Working to promote and protect worker rights globally with
programs in more than 60 countries and through 26 field
offices, the Solidarity Center's anti-trafficking programs scan
the globe. And, while each country we work in has its own set
of unique circumstances and problems, we have found a common
link between systematic worker rights violations and human
trafficking. This is particularly acute in the three countries
on which I will focus my testimony today: Thailand, Malaysia,
and Cambodia.
    We commend the State Department for downgrading Thailand
and Malaysia to Tier 3 in this year's TIP Report, and ranking
Cambodia on the Tier 2 Watch List. These rankings reflect the
reality that Solidarity Center and our partners on the ground
in these countries deal with every day--specifically, the lack
of progress by these governments in the identification and
protection of victims, particularly migrant workers;
prosecution of perpetrators, especially labor recruiters and
employers; and prevention and deterrence of labor trafficking.
We believe the tier rankings should be just the first step. The
U.S. Government and U.S. companies conducting business in these
countries have additional tools at their disposal to push
Thailand, Malaysia, and Cambodia to implement concrete and
effective initiatives to combat human trafficking for forced
labor, debt bondage, and other forms of labor exploitation.
    There are three main factors involved in labor trafficking
in Thailand, Malaysia, and in Cambodia that I would like to
highlight.
    First, a common element of the trafficking problem in these
three countries is the particular vulnerability of migrant
workers to forced labor and the lack of political will in the
governments to do much about it. The potential profits to be
made from the labor migration business in the region by
government officials, employers, employment agencies, and labor
recruiters seem to trump initiatives to combat migrant workers'
vulnerability. In all three countries, unsafe migration
processes and the lack of labor law and other legal protections
for migrant workers make them an easy target for traffickers.
    In 2008, my organization, the Solidarity Center, released a
report entitled ``The True Cost of Shrimp: How the Shrimp
Industry Workers in Bangladesh and Thailand Pay the Price for
Affordable Shrimp.'' Thailand is one of the main exporters of
shrimp to the United States. The report highlighted how
companies in Thailand systematically use the lack of labor
rights and weak labor law enforcement to exploit, traffic, and
put Burmese migrant workers into forced labor and debt bondage.
Six years later, little progress has been made. Despite the
overwhelming evidence of a high vulnerability of migrant
workers in Thailand to trafficking, the Thai Government has
actually implemented measures that increase migrant worker
vulnerability to labor trafficking.
    The recent military coup in Thailand also raises concerns.
While it is too early to tell how the current military
government will respond to the human trafficking crisis, there
have been reports of a crackdown on undocumented migrant
workers, with thousands of Cambodian workers fleeing over the
border from Thailand to Cambodia.
    Migrant workers in Malaysia face a similar situation. With
migrant workers comprising nearly 30 percent of the workforce,
Malaysia is one of the largest destination countries for
migrant workers in Asia. At the same time, migrant workers in
Malaysia routinely have their rights violated, with little
recourse under Malaysian law and policies. Similar to the Thai
Government, the Malaysian Government has actually implemented
policies to increase migrant workers' vulnerability to
trafficking.
    Cambodia is primarily an origin country for migrant
workers, as the Cambodian Government promotes labor migration
as a way to increase revenue and address high unemployment.
Yet, the government fails to monitor the recruitment process or
protect its workers overseas. Cambodian officials have been
tied to actual trafficking of victims over the Thai border.
    The second factor among the three countries is the lack of
investigations, prosecutions, and convictions for forced labor,
which is linked to corruption, complacency, and complicity of
government officials. There have been ridiculously few
prosecutions for forced labor in these countries. And even when
prosecutions are brought, they usually result in small fines
and jail time, and perpetrators are often let out on bail.
    The third factor that I would like to talk about is the
lack of economic pressure by governments and businesses to
eliminate forced labor and other forms of labor trafficking in
supply chains. Clearly, Malaysia, Thailand, and Cambodia are
important bilateral partners for the United States. Thailand is
one of the largest exporters of seafood to the United States,
and ready-made garments come into the United States from
Malaysia and Cambodia. Given the significant problem of
trafficking of migrant workers along these supply chains, it is
likely that products made with forced labor are ending up on
retail shelves in the United States.
    Given I am running out of time, I just very quickly wanted
to mention a few recommendations that I hope you will ask me
about in the question-and-answer period.
    Senator Cardin, you have already mentioned my first and
primary one, and that is using trade agreements as a way to
prevent trafficking in the region. The TPP is a prime example
of this, and, as you mentioned, we believe strongly that labor
standards in the TPP and other trade agreements should include
the same enforcement and dispute resolution mechanisms as other
provisions, like international property rights.
    We also feel strongly that Congress should encourage the
U.S. Trade Representative to suspend GSP and other trade
preferences for any country that does not effectively address
forced labor. The AFL-CIO recently filed a GSP petition against
Thailand, asking the USTR to suspend Thailand's GSP status
based on issues of forced labor and exploitation of migrant
workers in the country.
    I also--just two more quick ones--one is, we need to
regulate labor recruiters around the world. The U.S. Congress
can take a lead in this by passing legislation to regulate
foreign labor recruiters who bring migrant workers into the
United States.
    Again, I would like to thank both Senator Cardin and
Senator Rubio on helping to pass, last year, Subtitle F as part
of S. 744, which regulates labor recruiters and has great
provisions on the elimination of fees. We hope that this bill
can get passed in the House and become law and serve as a model
for countries such as Thailand and Malaysia.
    I will just end by saying a few other things that we need
to do is look at the Tariff Act of 1930 and the consumptive
demand exception. When you talked about consumers, Senator
Cardin, and the role that they can play, there are absolutely
products being made with forced labor that are in our grocery
stores, in our retail stores. And Thai shrimp may be one of
these. A way that we can help consumers figure out what to do
is to enforce the Tariff Act and stop these products from being
exported into the United States. But, without getting rid of
the consumptive demand exception, we will be unable to do that.
    We also need to put more pressure on companies to map their
supply chains and multinational corporations as buyers who have
the economic pressure that they can put on the suppliers in
countries such as Thailand, Malaysia, and Cambodia, to exert
that pressure. And we feel one way to do that is through the
Business Supply Chain Transparency on Trafficking and Slavery
Act of 2014.
    Thank you very much.
    [The prepared statement of Ms. Misra follows:]

                    Prepared Statement of Neha Misra

    Mr. Chairman, Senator Rubio, and other distinguished members of the
Senate Foreign Relations Subcommittee on East Asian and Pacific
Affairs, thank you for the opportunity to present the Solidarity
Center's perspective on the scope of human trafficking in East Asia and
the Pacific. We appreciate the committee's attention to this horrific
human rights abuse and particularly its emphasis on the labor issues
related to trafficking in the region. I ask that my full written
statement be put into the record, and I will summarize my main points
now.
    My name is Neha Misra. I am the Senior Specialist for Migration and
Human Trafficking at the Solidarity Center. We are an international
nongovernmental organization (NGO) that promotes and protects worker
rights globally, working in more than 60 countries through 26 field
offices. The Solidarity Center is an allied organization of the AFL-
CIO, and a member of the Alliance to End Slavery and Trafficking
(ATEST). Building upon more than 20 years of experience in the areas of
child labor, migrant worker exploitation, and supply chain
accountability, the Solidarity Center raises awareness about the
prevalence and underlying causes of forced labor and other forms of
trafficking for labor exploitation, and implements programs with
partners from myriad sectors to combat the problem. These programs
include initiatives that address each of the four ``Ps'' that have
become part of the anti-trafficking paradigm: prevention, protection of
victims, prosecution (or as we prefer to describe it, ``rule of law''),
and partnerships. The Solidarity Center has the unique ability to work
across borders, in both countries of origin and destination for
trafficked workers, as we have long-term on the ground relationships
with local partners. We have implemented antihuman trafficking programs
in countries such as China (Hong Kong), India, Indonesia, Malaysia,
Nepal, Pakistan, the Philippines, Sri Lanka, Thailand, Jordan, Kuwait,
Qatar, Kenya, Sierra Leone, Moldova, and the Dominican Republic.
    The Solidarity Center's anti-trafficking programs span the globe.
And while each country we work in has its own set of unique
circumstances and problems, we have found common themes. Human
trafficking and forced labor have, at their core, violations of worker
rights and lack of labor standards and protections for workers. Whether
its low-wage workers in sectors such as domestic work or construction,
migrant workers \1\ toiling on palm oil plantations, or other
marginalized groups such as poor women workers or child laborers, human
trafficking is a worker rights issue because it is linked to various
forms of labor exploitation. It is one of the worst forms of worker
abuse. This link between worker rights violations and human trafficking
is particularly acute in the three countries on which I will focus my
testimony today: Thailand, Malaysia, and Cambodia.
    Although U.S. and international definitions of human trafficking
clearly include forced labor, many policymakers and much of the general
public around the world associate trafficking only with forced
prostitution or commercial sexual exploitation. We continue to struggle
to get governments to respond adequately to the problem of labor
trafficking. Victims of trafficking for labor exploitation frequently
go unidentified. Immigration officials regularly categorize migrant
workers who are trafficking victims as undocumented workers and deport
them. Police and labor inspectors often view involuntary servitude or
debt bondage in sectors such as agriculture, construction, manual
labor, and manufacturing as worker rights abuses that do not require
their intervention. And governments have prosecuted shockingly few
cases of forced labor globally. Thailand, Malaysia and Cambodia are
prime examples of this.
    We commend the U.S. Department of State for downgrading Thailand
and Malaysia to Tier 3 in its annual Trafficking in Persons Report, and
ranking Cambodia on the Tier 2 Watch List. After 4 years on the Tier 2
Watch List, U.S. law required that Thailand and Malaysia be either
upgraded or downgraded. The Solidarity Center and ATEST are ardent
supporters of the U.S. Department of State's Office to Monitor and
Combat Trafficking in Persons (J/TIP) because we have witnessed the
crucial global leadership role that J/TIP plays in promoting the
eradication of trafficking and forced labor. We are also strong
supporters of the annual TIP Report, which in recent years has
documented an exponential increase in trafficking for forced labor,
debt bondage and other severe forms of labor exploitation.
    Over the years, however, there have been specific country cases
where political considerations rather than trafficking eradication were
brought into play in the tier rankings. This undermines the credibility
of the TIP Report. The State Department 2012 Inspector General's
Inspection of the Office to Monitor and Combat Trafficking in Persons
found: ``. . . there is an inherent difference in perspective between
J/TIP and the regional bureaus, which stems from J/TIP's mandated
responsibility to implement the TVPA [Trafficking Victims Protection
Act] and the regional bureaus' responsibilities for overall bilateral
relations.'' \2\ We are pleased to see, however, that the narratives
and tier rankings for Thailand, Malaysia, and Cambodia in the 2014 TIP
Report reflect the reality that the Solidarity Center and our partners
on the ground deal with every day--specifically, the lack of progress
by the governments of these countries in the identification and
protection of victims, prosecution of perpetrators (especially labor
recruiters and employers), and prevention and deterrence of labor
trafficking.\3\
    As I will discuss below, we believe the tier rankings should be
just the first step. The United States Government and U.S. companies
conducting business in these countries have additional tools at their
disposal to push Thailand, Malaysia and Cambodia to implement concrete
and effective initiatives to combat human trafficking for forced labor,
debt bondage, and other forms of labor exploitation. It is past time to
use these tools, as millions of workers continue to face vulnerability
to human trafficking in the region.
    Trafficking for labor exploitation is pervasive in all three
countries. There are three main factors involved in labor trafficking
in Thailand, Malaysia, and Cambodia I would like to highlight:
    1. The high vulnerability of migrant workers to human trafficking,
and the lack of political will among the governments to take serious
measures to combat it.
    2. Lack of investigations, prosecutions, and convictions for forced
labor (linked to corruption, complacency and even complicity of
government officials in labor trafficking).
    3. The lack of economic pressure by governments and businesses to
eliminate forced labor (and other forms of labor trafficking) in the
supply chains of products exported to the United States and other
global destinations.
     the high vulnerability of migrant workers to human trafficking
    A common element of the trafficking problem in Thailand, Malaysia,
and Cambodia is the particular vulnerability of migrant workers to
forced labor, debt bondage, and involuntary servitude, and the lack of
political will in the governments to do much about it. The potential
profits to be made from the global labor migration business--by
government officials, employers, employments agencies and labor
recruiters--seem to trump initiatives to combat migrant workers
vulnerability.
    Unsafe migration processes and the lack of labor law and other
legal protections for migrant workers make them an easy target for
traffickers. Migrant workers are often explicitly excluded from the
protection of labor and other laws--either because of their immigration
status or because of the sector they work in (such as domestic work).
Traffickers--in the form of labor recruiters and employers--take
advantage of this exclusion and of the failure to enforce and monitor
laws when they do exist, increasing the vulnerability of migrant
workers to human trafficking.
    Moreover, employers, businesses, and multinational corporations
increasingly rely on foreign labor recruiters or brokers to facilitate
the movement of workers from one country to another (and even manage
workers in the workplace after arrival). Recruiters are often complicit
with or directly involved in trafficking of workers. They regularly
charge exorbitant fees for their services, forcing workers into debt
bondage, falsifying documents, and deceiving workers about their terms
and conditions of work, increasing their vulnerability to human
trafficking. Labor recruiters play a major role in the trafficking of
migrant workers throughout Asia.
Thailand
    The majority of human trafficking victims in Thailand are migrant
workers. There are an estimated 3 to 4 million migrant workers in
Thailand comprising about 10 percent of the country's workforce. Most
come from neighboring countries, with the majority from Burma. Many, if
not most, of these migrant workers are undocumented. Migrant workers in
Thailand (men, women, and children) toil in almost all sectors of the
economy, but especially commercial fishing, fishing-related industries
like seafood processing, low-end garment production, factories/
manufacturing, and domestic work. They perform dangerous, difficult,
and dirty jobs--and there is high demand for their cheap labor among
Thai employers.
    In 2008, the Solidarity Center released a report as part of its
Degradation of Work series entitled, ``The True Cost of Shrimp: How
Shrimp Industry Workers in Bangladesh and Thailand Pay the Price for
Affordable Shrimp.'' Thailand is one of the main exporters of shrimp to
the United States. The report highlighted how companies in Thailand
systematically use the lack of labor rights and weak labor law
enforcement to exploit the mostly Burmese shrimp processing workers.
The report uncovered major human rights abuses in the industry: unpaid
wages, unsafe and unhealthy workplaces, child labor, forced labor,
physical intimidation, violence and sexual abuse of Burmese migrant
workers. Six years later, little progress has been made to clean up the
industry. Reports continue to surface about human trafficking of
migrant workers in the seafood processing sector in Thailand.\4\ The
Thai fishing industry has also received harsh criticism for the
trafficking of migrant worker men, not only Burmese, but increasingly
Cambodians and Rohingya refugees, onto fishing boats.\5\ This was a
major factor in the downgrading of Thailand in the 2014 TIP Report.\6\
Just this year, the Guardian newspaper conducted a 6-month long
investigation and found that a large number of migrant workers are
bought and sold like slaves and held against their will on Thai fishing
boats. The Guardian found that such forced labor plays an integral part
in the production of shrimp sold in leading supermarkets around the
world, including in the U.S. in stores such as Walmart, Costco,
Carrefour, and Tesco.\7\
    Despite the overwhelming evidence of a high vulnerability of
migrant workers in Thailand to trafficking for forced labor and debt
bondage, the Thai Government has done very little to address the
problem, and in fact has implemented measures that may actually
increase migrant workers vulnerability to labor trafficking.
    It is an established norm in the anti-trafficking field that
providing documentation and legal status to migrant workers reduces
their vulnerability to human trafficking. The Thai Government, however,
makes it difficult for migrant workers, and especially Burmese, to
register and work legally in Thailand. As noted in a recent letter to
Secretary of State Kerry from a global coalition of unions and human
rights NGOs:

        A complicated, expensive registration process that requires
        nationality verification and lack of a refugee law leaves
        stateless people (mostly Rohingya from Burma), migrant workers,
        and refugees at the mercy of labor recruiters to arrange for
        the documents they need to live in Thailand legally. Even
        through the official state process, brokers are not licensed or
        regulated, workers are responsible for paying the majority of
        the registration costs, and there is no state mechanism through
        which to apply for asylum outside the camps on the Thai-Burma
        border. Thus, many workers find themselves in some form of debt
        bondage to brokers. . . . [R]egistration has expired for more
        than 250,000 workers who often paid several times more than the
        official rate to register under the National Verification
        System 4 years ago. As their documents expire, and official
        directives of how they must renew them remain in flux, more and
        more migrant workers are going to find themselves in the
        country illegally and more vulnerable to trafficking.\8\

    Migrant workers, ethnic minorities, and stateless persons in
Thailand are the most vulnerable to human trafficking because they lack
legal status. Lack of legal status, identity papers, and travel
documents are major indicators for forced labor.
    Moreover, the Thai Government continues to make it difficult for
migrant workers to obtain permits to work legally in the country. Only
employers can apply for work permits and the permit binds the worker to
that employer. Work permits also are tied to registration documents, so
even legally registered workers can be immediately deported for leaving
an abusive employer. Workers often face physical abuse and other forms
of retaliation if employers find out they complained to the authorities
to seek better treatment or to transfer to another employer.\9\
    Through our programs in vulnerable work sectors around the world,
the Solidarity Center has seen firsthand how a democratically elected
and independent union in a workplace can help prevent trafficking. And
yet, the Thai Government has failed to amend its 1975 Labor Relations
Act, which prohibits migrant workers from organizing labor unions,
serving as leaders of a union, or participating in collective
bargaining.
    The recent military coup in Thailand also raises concerns. While it
may be too early to tell how the current military government will
respond to the human trafficking crisis, there have been reports of a
crackdown on undocumented migrant workers, with hundreds of thousands
of Cambodian workers fleeing over the border from Thailand back to
Cambodia in early June 2014. We have seen in other countries where
there is a forced mass exodus of migrant workers that workers face an
increased vulnerability to exploitation as they cross the border back
into their home country with few resources. (See example from Malaysia
below). In recent days, the Thai and Cambodian Governments announced
new measures to streamline the process for Cambodian migrant workers to
return to Thailand to work legally, promising to lower fees to workers
and shifting some recruitment costs to agencies.\10\ While this sounds
promising, whether it will actually help to reduce migrant workers
vulnerability to forced labor and debt bondage remains to be seen.
    Just last month, Thailand was the only government to vote against
adoption of a new International Labor Organization (ILO) treaty on
forced labor. I was a delegate on behalf of the AFL-CIO to the ILO
Conference, which approved a key supplement to the 1930 Forced Labor
Convention. The 2014 Forced Labor Protocol and Recommendation contain
key provisions to help address the vulnerability of migrant workers to
trafficking, such as the elimination of recruitment fees. Given
Thailand's poor record on protecting migrant workers from human
trafficking, its ``no'' vote was particularly troubling. Following the
vote, after pressure from Thai labor unions and others, the Thai
Government has indicated it will adopt the protocol. The United States
and other governments should continue to exert pressure to ensure that
the Thai Government ratifies the instrument.
Malaysia
    Migrant workers in Malaysia face a similar situation as migrant
workers in Thailand. Malaysia is one of the largest destination
countries for migrant workers in Asia. There are approximately 2
million documented and 2 million undocumented migrant workers,
including Indonesians, Nepalese, Filipinos, Indians, Bangladeshis, Sri
Lankans, and increasingly Vietnamese, Cambodians, Burmese, and
Laotians. These migrants comprise nearly 30 percent of the Malaysian
workforce. While the Malaysian economy thrives on cheap migrant labor,
foreign workers in sectors such as agriculture, construction, service,
manufacturing, and domestic work often have their rights violated with
little recourse under Malaysian laws, policies, and practices.
    Despite the constant demand for cheap migrant labor, as well as an
invariable influx of migrants, Malaysia does not have concrete policies
and laws to protect migrant workers. The few existing policies
protecting migrants are not enforced, or are enforced inconsistently,
and tend to be short-term, temporary fixes. Malaysia has signed
Memoranda of Understanding (MOUs) with several countries mentioned
above, yet these agreements are often weak and difficult to enforce.
    Migrant workers in Malaysia consistently face serious violations of
internationally recognized labor and human rights. These violations
include confiscation of passports, restrictions on movement, and deceit
and fraud in wages (including nonpayment), forced labor, involuntary
servitude, debt bondage and other forms of trafficking in persons.
Physical and mental abuse, including sexual violence, is also a common
phenomenon.
    Debt bondage is a major problem for migrant workers in Malaysia.
Employers increasingly rely on labor recruiters or employment agencies
to recruit foreign workers. These recruiters/agencies charge high fees
to migrant workers, often forcing workers to mortgage homes/land or to
take out loans at exorbitant interest rates. Workers may end up in
conditions of bondage, as they are unable to leave abusive employers
because of the debt. The Malaysian Government and the origin
governments have failed to adequately address this problem. Moreover,
Malaysian employers shift additional costs to workers that are the
employer's responsibility, and use other economic coercion tactics to
deny migrant workers their rights. The U.S. Department of State
explains this well:

        Many Malaysian recruitment companies, known as ``outsourcing
        companies,'' recruit workers from foreign countries.
        Contractor-based labor arrangements of this type--in which the
        worker may technically be employed by the recruiting company--
        create vulnerabilities for workers whose day-to-day employers
        generally are without legal responsibility for exploitative
        practices. In some cases, foreign workers' vulnerability to
        exploitation is heightened when employers neglect to obtain
        proper documentation for workers or employ workers in sectors
        other than that for which they were granted an employment visa.
        In addition, a complex system of recruitment and contracting
        fees, often deducted from workers' wages, makes workers
        vulnerable to debt bondage. . . . \11\

    Rule of law for migrant workers in Malaysia is weak. Labor laws
exempt migrant workers, or are weakly enforced. Many laws do not comply
with international labor standards. For example, Malaysia excludes
certain categories of workers, like domestic workers, from the
protection of its 1955 Employment Act. There is little support for
trafficked workers to access justice. Migrant workers are often put in
detention centers or deported even if they are victims of worker rights
violations, including forced labor.
    Although it is lawful for migrant workers to join unions in
Malaysia, they are prohibited from holding leadership positions, and
may be banned from joining a union if they are contract employees,
which most migrant workers are. Moreover, many employment contracts for
foreign workers contain provisions banning workers from joining labor
unions. Origin governments, such as Vietnam, also prohibit workers from
joining unions in Malaysia. Further, employers routinely fire and
blacklist migrant workers for trying to form unions with impunity. Such
restrictions on freedom of association further prevent migrant workers
from accessing justice for worker rights violations because they cannot
access grievance procedures, or use collective bargaining to gain
rights in the workplace.
    Union leaders and migrant workers activists in Asia have criticized
the 2007 Malaysian Anti-Trafficking in Persons Act (ATIP) for merging
smuggling and trafficking offenses, ``making trafficking victims more
likely to be treated as undocumented migrants subject to immediate
deportation, undermining government efforts to counter trafficking.''
\12\
    Similar to the Thai Government, the Malaysian Government has
actually implemented policies recently that are increasing migrant
workers vulnerability to forced labor rather than decreasing it. For
example, a Malaysian Government policy implemented in January 2013
places the burden of paying immigration and employment authorization
fees on foreign workers, rather than on employers, increasing the risk
of debt bondage. Moreover, the Malaysian Government periodically
implements crackdowns on undocumented migrants, most recently in
January 2014, where they conducted massive operations to detain and
deport hundreds of thousands of migrant workers. However, the Malaysian
Government does not have adequate screening procedures to ensure that
trafficking victims are not also detained and deported. In addition,
the deportations often involve leaving migrant workers literally just
over the border in Indonesia without any resources or support.
Indonesian NGOs report that these migrant workers are then vulnerable
to traffickers who promise them new jobs or assistance in getting home.
    Finally, the Malaysian Trade Union Congress (MTUC), which is active
on the promotion of migrant worker rights and the eradication of labor
trafficking, notes that the Malaysian Government has been blocking the
completion of the ASEAN Framework Instrument on the Protection and
Promotion of Human Rights, which migrant worker rights activists have
been pushing for since 2007.
Cambodia
    Unlike Thailand and Malaysia, Cambodia is primarily an origin
country for migrant workers traveling mostly within the ASEAN region
(often to Thailand and Malaysia). Cambodian men, women, and children
have been subjected to forced labor, domestic servitude, and debt
bondage, in sectors such as fishing, agriculture, manufacturing, and
domestic work.
    Similar to the situation of its neighbors, recruitment agencies
play a major role in the trafficking of Cambodian workers. Agencies,
along with corrupt local government officials, falsify legal
identification documents to facilitate the illegal migration of
children. Labor recruiters also charge exorbitant fees to migrant
workers. A Solidarity Center Cambodian partner NGO cited fees as high
as $600, which may be 1 year's salary for a low-wage migrant worker.
Such fees often push Cambodian migrant workers into debt bondage.
Corrupt Cambodian officials have also been implicated in cooperating
with labor recruiters to facilitate the transport of victims across the
border into Thailand.\13\
    The Cambodian Government's response to labor recruiter violations
has been weak, and rife with corruption. For example, a local Cambodian
newspaper reported:

        [T]he appointment of General Sok Phal to head the Interior
        Ministry's newly formed department to monitor migrant workers
        has raised concerns over his close familial connection to a
        labor recruitment industry fraught with human rights abuses.
        Gen. Phal's sister, Ung Seang Rithy, is the owner of one of the
        biggest labor recruitment agencies sending Cambodian workers
        overseas . . . the Ung Rithy Group, which has been named by
        rights groups as a serial abuser of Cambodian migrant workers.
        Ms. Seang Rithy is also president of the Association of
        Cambodian Recruitment Agencies . . . ``When I heard this news,
        I was concerned about the close relationships between high-
        ranking people in the government and in recruitment agencies,''
        said Moeun Tola, head of the labor program at the Community
        Legal Education Center. ``Since the Labor Ministry failed to
        properly manage and monitor [migrant workers], labor
        recruitment basically became human trafficking,'' Mr. Tola
        said. ``The Ministry of Interior will now take on much more of
        the work, meaning Sok Phal will have even more influence than
        before.'' . . . \14\

    In response to harsh media reports of Cambodian women and girls
being trafficked into domestic servitude in Malaysia,\15\ the Cambodian
Government instituted a ban on the migration of women to Malaysia for
domestic work. The Cambodian Government, however, lacks the
infrastructure, capacity, and resources to manage labor migration and
there are reports that Cambodian women and girls continue to migrate to
Malaysia through even more insecure channels and methods, increasing
their vulnerability to trafficking. The Cambodian Ministry of Labor is
currently finalizing a draft MOU with its Malaysian counterpart to
facilitate the migration of domestic workers once again from Cambodia
to Malaysia. Without effective enforcement measures, however, activists
are skeptical that the MOU will protect Cambodian domestic workers.
Cambodian men have also been a large percentage of the victims of
forced labor described above on Thai fishing boats.
    The Cambodian Government promotes labor migration as a way to
increase national revenue (through remittances) and address high
unemployment in the country. Yet the government fails to monitor the
recruitment process, enforce labor recruiter regulations, and support
Cambodian workers in destination countries. The government has not
created the structures or infrastructure to support Cambodian workers
abroad. It negotiates weak agreements with destination countries (the
MOU with Malaysia in relation to domestic workers is a prime example).
Cambodian Embassies abroad are ill-equipped to deal with the large
numbers of exploited and trafficked Cambodian workers. There is very
little accountability for corruption.
ASEAN
    The planned ASEAN Economic Community (AEC), currently being
developed by the 10 Association of Southeast Asian Nations (ASEAN)
member states, will include initiatives related to labor mobility in
the region. The proposed labor mobility negates the whole concept of
``migrant workers'' at least for citizens of member states, though
high-skilled workers will have easier mobility than low-wage workers.
The ASEAN labor mobility initiatives, however, are being developed
without any accompanying safeguards or labor rights standards to ensure
that migrant workers will be protected. Migrant worker rights activists
in the region have serious concerns that without the proper
infrastructure in place, including strong regulations, migrant workers'
vulnerability to forced labor and human trafficking will likely
increase. Cambodian labor rights activists are particularly concerned
for Cambodian workers, who will be a large percentage of the low-wage
workers leaving their homes to travel to other ASEAN countries (like
Malaysia and Thailand) to work in the most dangerous jobs, and in jobs
the most rife for exploitation.
Lack of investigations, prosecutions, and convictions for forced labor
        (linked to corruption, complacency and even complicity of
        government officials in labor trafficking)
    Systematic abuse of migrant workers, rising to the level of forced
labor and human trafficking, goes virtually unpunished throughout Asia.
The 2014 TIP Report country narratives for Thailand, Malaysia, and
Cambodia provide examples of these governments' reluctance to hold
employers accountable for trafficking in their workplaces. Even in the
rare cases when labor trafficking is identified and charges brought,
the labor recruiter is blamed and not the employer who also perpetrates
the exploitation. This lack of political will translates into
pathetically few cases of human trafficking for forced labor or other
forms of severe labor exploitation being prosecuted in the region. When
cases are prosecuted, they often result in small fines and no jail time
for the perpetrators--barely a deterrent for exploitative employers. Or
cases get put on hold for years while perpetrators are out on bail.
    While public awareness campaigns and education for at-risk groups
are important tools for prevention, one of the key ways to prevent
forced labor is to create an enabling environment through the rule of
law that promotes transparency and accountability. Increasing
prosecutions and convictions, and imposing harsh penalties (including
long jail time and economic restitution) may be an even more effective
prevention tool.
    As mentioned above, corrupt officials in Thailand, Malaysia, and
Cambodia are part of the problem. For example, Thai Government
officials have been implicated in the trafficking of Rohingya refugees
on Thai fishing boats. Cambodian officials have been tied directly to
working with labor recruiters to traffic workers over the border to
Thailand, and Malaysian immigration officials have been linked to
facilitating the transportation of trafficking victims. Human Rights
Watch has reported that abuses of Cambodian migrant domestic workers by
employers and recruiters ``went unchecked due to connections between
recruitment agencies and highly placed officials.'' \16\
    Moreover, whistleblowers, in the form of trade union or NGO
activists, journalists, and migrant workers, have been retaliated
against by all three governments for raising issues of forced labor and
corruption linked to human trafficking. For example, late last year,
Thai authorities charged two journalists with defamation for writing
and publishing a report alleging that members of the Thai navy were
involved in trafficking captured migrants from Burma. This not only
raises concerns about the freedom of the press, but also concerns of
how the Thai military will respond to trafficking abuses now that it is
in charge of the government.
    The Solidarity Center sees the low levels of forced labor
prosecutions, lack of political will and impunity as evidence of these
governments' absolute disregard of forced labor as a serious issue.
Labor migration is seen as a profitmaking mechanism, for employers,
owners of recruitment agencies, and government officials, and human
trafficking as just an unfortunate consequence.
The lack of economic pressure by governments and businesses to
        eliminate forced labor and other forms of labor trafficking in
        the supply chains of products exported to the United States and
        other global destinations
    Clearly, Thailand, Malaysia and Cambodia are important bilateral
partners for the United States. They are also important trade partners.
Malaysia is part of the Trans-Pacific Partnership (TPP) negotiations
with the United States and 10 other countries. The U.S. and Cambodia
negotiated the Trade and Investment Framework Agreement (TIFA) in 2006,
which ``facilitates and promotes greater trade and investment of the
two countries and provides a forum to address bilateral trade and
investment issues.'' \17\ Thailand is one of the largest exporters of
seafood to the United States. The AFL-CIO has filed a petition to
suspend Generalized System of Preferences (GSP) status for Thailand
with the U.S. Trade Representative (USTR). The AFL-CIO has called for a
suspension of GSP as a way to incentivize the Thai Government to
effectively address forced labor and human trafficking, and other labor
rights abuses of migrant and Thai workers. The U.S. is a major market
for Malaysian and Cambodian ready-made garments. Given the significant
problem of trafficking of migrant workers along the supply chains in
these and other export sectors, it is likely the U.S. Government is
allowing imports of products made with forced labor into the United
States.
    When the Solidarity Center issued its True Cost of Shrimp report in
2008, we were immediately attacked by Thai shrimp producers and
industry associations, who all claimed that they had good labor
practices and clean supply chains. The companies also made promises to
be transparent and institute measures to ensure that there was no
forced labor in fishing and seafood production in Thailand. Yet every
year since, the media, unions, and NGOs have provided strong evidence
of forced labor in the industry. When the State Department ranked
Thailand on Tier 3 last month, the Thai fishing industry again claimed
the allegations were outrageous.\18\ The industry representatives can
make these false claims because they know that they likely will not be
held accountable by the Thai Government or anyone else.
    U.S. multinationals may be complicit in this. As mentioned earlier,
Thailand is one of the largest importers of shrimp to the U.S.;
resulting in Thai shrimp ending up in the freezers of major retailers
here. As buyers of Thai processed seafood, these U.S. companies have
not done enough to prove to consumers that their supply chains are not
tainted with forced labor.
    Again, public awareness campaigns and education for at-risk groups
are important tools for prevention; but in and of themselves they will
not eradicate trafficking for forced labor. Together with increased
prosecutions and convictions, one of the most effective prevention
tools that governments and businesses have is economic pressure.
Governments should impose trade restrictions or penalties on products
made with forced labor, and multinational corporations should exert
their significant power as buyers to hold suppliers accountable to
supply chains free of forced labor.
    In general, it is difficult to quantify the exact number of forced
labor victims in global supply chains but, as those supply chains reach
down to smaller and smaller suppliers, the chances increase that the
labor force includes trafficked people.

  <bullet> When employers (buyers and multinational corporations)
        demand cheap or unrealistic pricing structures, severe labor
        abuses, including forced labor, often will result in their
        supply chains.
  <bullet> Similarly, when employers contract out or hire unregulated
        subcontracted suppliers, they should not be surprised to find
        that they have trafficking victims in their production lines.
  <bullet> When employers refuse to enforce or claim that it is too
        difficult to monitor adherence to core labor standards in their
        supply chains, the probability that they will find forced
        labor, debt bondage, and other severe forms of labor
        exploitation increases.

    The pricing structure as a cause of human trafficking cannot be
overemphasized, as this is an underlying factor that employers,
business, corporations and consumers can all address. As described in
the Solidarity Center's report, ``The True Cost of Shrimp'':

          As a commodity, the price of shrimp fluctuates according to
        supply and demand, and price pressure is significant all along
        the supply chain. Retailers, sensitive to the risk involved
        with importing fresh food, press import companies for faster
        distribution, acceptable quality, and the lowest prices.
        Importers, aware that market fluctuations can affect prices,
        leverage their bulk purchasing power to demand speedy delivery
        from producers. Trapped between producers and importers are
        labor-intensive shrimp factories. Often, the factories'
        response to price pressure is to squeeze wages, neglect
        workplace health and safety regulations, and cut other corners
        that leave shrimp workers bearing the social cost of affordable
        shrimp.\19\

    And yet, Thai shrimp continues to be found in major U.S. retail
markets. Similar concerns may be raised on the potential of forced
labor in the supply chains of products exported from Malaysia and
Cambodia.
    The U.S. Government must do more to ensure that U.S. corporations
are held accountable for their practices abroad. And we must increase
government scrutiny of imports and exports to ensure goods made by
forced labor are not allowed in the U.S. marketplace. The 1930 Tariff
Act prohibits the importation of goods into the U.S. made with forced
or child labor. This law however is rarely enforced as the
``consumptive demand exception'' weakens it. As required by the 2005
TVPRA, the U.S. Department of Labor ``maintains a list of goods and
their source countries which it has reason to believe are produced by
child labor or forced labor in violation of international standards.''
\20\ Even though many of the goods on the list are produced for export
by the identified countries, the list has not been used to enforce the
Tariff Act.
    After the publication of the Solidarity Center's ``True Cost of
Shrimp'' report, Senator Harkin asked the Department of Homeland
Security (DHS) to investigate. U.S. Immigration and Customs Enforcement
(ICE) investigators admitted to the Solidarity Center that they knew
that their investigation would not find forced labor in the Thai
seafood sector because the investigation process is flawed. Currently,
ICE must notify foreign governments of their intent to inspect
workplaces that export products to the United States. Such notification
results in the ``cleansing'' of these workplaces to remove any signs of
trafficking or forced labor. Moreover, U.S. law does not allow evidence
collected by unions, the media or nongovernmental sources to be the
basis for restricting the importation of products made by trafficked or
forced labor. This must be reformed. The DHS must review and rework the
role of ICE in overseas inspections.
    Multinational corporations' codes of conduct have failed to curtail
trafficking practices in many sectors, including garment/textile,
agriculture, and seafood processing. There is no easy solution to this
problem, but we know that a key deterrent is the ability of unions and
labor rights organizations to shine a light on these practices through
on-the-ground investigations. We believe it is important that Congress
and the administration support such monitoring efforts and the efforts
of workers to monitor their own workplaces. Ultimately, workers and
trade unions must be empowered to monitor supply chains because history
shows that abuses in the workplace only end when workers have the power
to ensure that their rights in ILO conventions and national laws are
respected.
    recommendations for initiatives to combat trafficking for labor
                  exploitation in the east asia region
    ``End Worker Exploitation, End Human Trafficking.'' This simple
slogan captures one of the most critical solutions to ending human
trafficking in Thailand, Malaysia, and Cambodia as migrant worker
exploitation is a major factor in forced labor in the region.
    Key initiatives to combat trafficking for labor exploitation in the
region should include:
1. Using trade agreements to prevent forced labor (economic pressure)
    a. Congress, the administration, and other governments should
ensure that bilateral and multilateral trade agreements (like the TPP)
contain labor standards and protections as a preventative measure,
ensuring they are applied to all workers, including migrants. Labor
standards in trade agreements should include the same enforcement and
dispute resolution mechanisms as other provisions like intellectual
property rights, and not be relegated to secondary status.
    b. Congress should encourage and support the United States Trade
Representative (USTR) to suspend GSP and other trade preferences for
any country that does not effectively address forced labor. Given the
clear evidence of forced labor of migrant workers in Thailand, once
Congress reauthorizes the GSP program, the USTR should give serious
consideration to the AFL-CIO's petition to suspend Thailand's GSP
status. Economic pressure is key to eradicating forced labor.
Prevention through regulation of labor recruiters
    a. Congress and other governments should strictly regulate labor
recruiters and employment agencies. Specifically, eliminate worker
recruitment fees and shift costs back to the employer. Workers should
not be required to pay any fees associated with recruitment, the
migration process, or placement. Employers must be held liable for the
abuses of labor recruiters they hire. In addition, workers must have a
way to ensure that a recruiter is legitimate and licensed.
    b. To that end, the Senate passed Subtitle F: Prevention of
Trafficking in Persons and Abuses Involving Workers Recruited Abroad
and similar provisions in Subtitle I as part of S. 744 (Immigration
Reform) in 2013 is a significant step forward in addressing #15 above.
In the House of Representatives, H.R. 3344, introduced last year by
Chairman Ed Royce, is modeled after Subtitle F, and has bipartisan
support with over 70 cosponsors. The Senate and the House of
Representatives should make efforts at the earliest possible time to
pass such legislation to end fraud in our nonimmigrant visa programs
and prevent trafficking in the labor recruitment system. Not only will
such a law help to protect migrant workers in the U.S.; but, it will
also serve as a powerful model for other countries, such as Thailand,
Malaysia, and Cambodia, which need to pass and enforce similar laws and
policies.
    c. Thailand, Malaysia and Cambodia must specifically adopt measures
to de-link government officials from recruitment agencies, including
measures to address possible conflicts of interest. High level
prosecutions of corrupt government officials and owners of labor
recruitment agencies would also send a powerful message.
3. Safe Migration
    Congress and the administration (J/TIP, DRL, DOL, DOJ) should
emphasize safer migration processes for workers. Immigration policies
should emphasize ways to make workers safer during the migration
process, and reflect economic reality. For Thailand and Malaysia, this
means ending operations that result in mass deportations of
undocumented migrant workers, without effective measures in place to
identify and support trafficking victims. It also means ensuring that
deported workers are provided with a safe passage home. Finally,
Thailand and Malaysia should amend their laws and policies to make it
easier for migrant workers to obtain valid work permits and residency
documents at little or no cost, in streamlined processes.
4. The rule of law (prosecutions and accountability)
    a. Governments should increase the number of prosecutions and
convictions for forced labor. For Thailand, Malaysia, and Cambodia,
this means training police and prosecutors to better investigate and
prosecute forced labor cases; and protecting police and other law
enforcement officials from retaliation by powerful employers,
businessowners or high-level government officials for bringing cases
forward.
    b. Penalize abusive workplaces. Strengthen enforcement and
penalties against employers who are found to have trafficked workers or
to companies who have bought products or raw materials made by forced
labor. This means prosecuting employers and imposing stiff penalties.
Employers must be held accountable for the abuses of their
subcontractors, including labor recruiters, and for abuses in their
supply chains.
5. The rule of law (creating an enabling environment)
    a. Congress, the administration, governments in the region, and
multinational corporations should ensure freedom of association, the
right to organize, join trade unions and collectively bargain for all
workers, regardless of status or nationality, in both origin and
destination countries, and as an essential component of ASEAN economic
integration.
    b. For Thailand and Malaysia, the freedom of association must be
assured in practice and not just law. This means strict penalties for
employers who fire, blacklist, or retaliate against migrant workers who
try to organize; and reform of laws that prohibit migrant workers from
joining or holding leadership positions in unions, and from
participating in collective bargaining.
    c. Thailand, Malaysia and Cambodia should reform their labor and
other laws to include and protect migrant and domestic workers. All
workers--whether national or foreign, documented or undocumented--must
have equal protection under the law, and receive full protection of the
laws. In addition, governments and employers must recognize and enforce
all ILO core labor standards, including the freedom of association and
right to organize.
    d. Congress and the Departments of State and Labor should promote
the ratification and implementation of ILO Convention 189 on Decent
Work for Domestic Workers, and the ILO Protocol of 2014 to the Forced
Labor Convention, 1930 and its accompanying Recommendation.
    e. Congress, the administration, and governments in the region
should give equal attention not only to passing better laws, but also
implementing, monitoring, and enforcing those laws. To do so,
governments must enhance the role of labor inspectors. Labor inspectors
must be engaged in and be an integral part of law enforcement
initiatives to combat human trafficking. In particular, labor
inspectors must be given special training to recognize the signs of
human trafficking in a workplace, including debt bondage and other
forms of economic coercion that result in human trafficking, and to
identify victims. Governments must also ensure that there are
sufficient numbers of labor inspectors, and that they have the
responsibility to inspect all workplaces--including those with high
percentages of migrant workers.
    f. Congress and the Thai, Malaysian and Cambodian Governments must
pass national whistleblower protection laws regarding trafficked
workers. Also, companies should ensure that there are such protections
in company policy all along the supply chain, and advocate to
governments for such protections for workers.
6. Preventing the importation of goods made with forced labor
    a. DHS should increase scrutiny of imports and exports to ensure
goods made by trafficked or forced labor are not allowed in the U.S.
marketplace. This includes reviewing and re-working the role of ICE in
overseas inspections. The Senate may consider holding a hearing on this
issue.
    b. Congress should amend the Tariff Act of 1930 to remove the
``consumptive demand exception.'' The demand loophole ``renders the ban
almost useless, since courts have ruled that U.S. Customs cannot block
any product unless the U.S. makes enough of it to meet 100 percent of
domestic needs . . . The 1930 provision is unsuited to a globalized
21st-century economy that gives importers a wide choice of suppliers.
As the dominant force in this new era, the U.S. has an obligation to
set the example.'' \21\ Congress and the administration should also
amend U.S. law and policy to allow evidence collected by unions or
nongovernmental sources to be the basis for restricting the importation
of products made by forced labor.
    c. As an immediate measure to implement #11 and #12, DHS and
Congress should review the importation of Thai seafood under the 1930
Tariff Act.
7. Supply chain accountability
    a. Congress should increase pressure on companies to map their
supply chains and make such information public. Companies argue that it
is too difficult or expensive to completely map their supply chains. If
NGOs and the media can do it, however, companies can too. There needs
to be a change in business practices.
    b. To that end, Congress should pass supply chain transparency
legislation, similar to H.R. 4842, the Business Supply Chain
Transparency on Trafficking and Slavery Act of 2014, which was
introduced on a bipartisan basis by Representatives Maloney and Smith
on June 11, 2014. Such legislation would require companies to report
annually to the SEC and on their Web sites what measures they have
taken to address forced labor, human trafficking, and the worst forms
of child labor within their business operations, including supply
chains and labor management, in a way that is consistent with the
obligations of businesses as outlined by the U.N. Guiding Principles on
Human Rights. While such legislation would purely be a transparency
measure, we see it as a first step in ensuring forced labor-free supply
chains.
    c. As an effective way to monitor supply chains for trafficking and
forced labor, Congress, the administration, other governments, and
businesses should promote freedom of association and the right to
organize, worker agency and worker representation, over codes of
conduct and third party monitoring. The Bangladesh Accord on Fire and
Building Safety and Coalition of Immokalee Workers' Fair Food Program
are promising models of how to do this.
8. U.S. Government Bilateral and Multilateral Support
    a. Congress and the administration should provide support to origin
countries (like Cambodia, Indonesia and Bangladesh) to negotiate
multilateral agreements with more powerful destination countries to
level the playing field for migrant workers. Because of unequal
bargaining power, and the desire of developing origin countries for
remittances and employment abroad for their citizens, bilateral
agreements are often weak, and provide few worker rights protections.
Multilateral agreements may provide more avenues for labor standards.
    b. Congress should authorize and appropriate sufficient long-term
resources to the Department of State's Bureau of Democracy, Human
Rights and Labor (DRL) and J/TIP, as well as the Department of Labor-
International Labor Office (ILAB) to support government efforts in
Thailand, Malaysia, and Cambodia, and in other high-risk countries
around the world, in their efforts to combat forced labor and other
forms of trafficking for labor exploitation. All three agencies have an
important role to play in this effort to provide technical assistance
to governments and moral and financial support for civil society
(including Solidarity Center long-term local partners) in all three
countries to enhance monitoring and implementation of anti-trafficking
capacity building programs.
    c. Congress should continue to call for the Department of State to
strengthen the labor reporting function in its Embassies abroad. The
Cambodian Government should also assign, and properly train, labor
attaches in Embassies abroad where there are large numbers of Cambodian
migrant workers.
9. Victim Protection
    a. Promote better protection measures for victims. For Thailand and
Malaysia, this means training government officials to recognize and
identify victims of forced labor and other forms of labor trafficking,
and not detain or deport them as undocumented migrants.
    b. Provide compensation to victims, including payment of withheld
or back wages.

    Thank you, again, for the opportunity to testify and for your help
to combat labor trafficking in the East Asia and Pacific region. I
welcome your questions.

----------------
End Notes

    \1\ The term ``migrant worker'' is the internationally accepted
term for a person who migrates for employment, whether temporary,
seasonal, or permanent. In the United States, in everyday language,
``migrant worker'' may refer to a seasonal or temporary worker, and
``immigrant worker'' refers to someone who migrates for work on a more
permanent basis, or who has residency rights. I will use the term
``migrant worker'' in my testimony to refer to all workers who migrate
for work, regardless of their status or length of stay in the
destination country.
    \2\ Office of Inspections, Inspection of the Office to Monitor &
Combat Trafficking in Persons, Report Number ISP-I-12-37 (June 2012).
    \3\ There were a few rankings in the 2014 TIP Report that advocates
believe were based on political considerations--India and the Dominican
Republic to name two; however, we can save that discussion for another
hearing.
    \4\ See for example: ``Trafficked into Slavery on Thai Trawlers to
Catch Food for Prawns,'' The Guardian, June 10, 2014.
    \5\ See ``Special Report: ``Thailand Secretly Supplies Myanmar
Refugees to Trafficking Rings,'' Reuters, December 4, 2014.
    \6\ http://www.state.gov/j/tip/rls/tiprpt/countries/2014/
226832.htm.
    \7\ See ``Revealed: Asian Slave Labour Producing Prawns for
Supermarkets in U.S., U.K.,'' The Guardian, June 10, 2014. See also
``Thailand's seafood industry: a case of state-sanctioned slavery?''
The Guardian, June 10, 2014.
    \8\ ``Letter to Secretary of State John Kerry Regarding Human
Trafficking in Thailand,'' May 9, 2014.
    \9\ ``Letter to Secretary of State John Kerry Regarding Human
Trafficking in Thailand,'' May 9, 2014.
    \10\ See ``King Grants Pardon to Thai Activist Veera'', The
Cambodia Daily, July 2, 2014.
    \11\ http://www.state.gov/j/tip/rls/tiprpt/countries/2014/
226770.htm
    \12\ ``More Bold Actions Need to be Done to Address Trafficking in
Persons in Malaysia,'' Statement by Jose Sonny G. Matula, National
President, Federation of Free Workers-Philippines, to the 2014
International Labor Conference, June 2014.
    \13\ See Trafficking in Persons Report 2014.
    \14\ ``Concern over Migration Chief's Family Connections,'' The
Cambodia Daily, April 24, 2014.
    \15\ See, for example, ``Cambodia: Trafficking Domestic Workers to
Malaysia,'' IRIN, March 17, 2011.
    \16\ `` `They Deceived Us at Every Step.' Abuse of Cambodian
Domestic Workers Migrating to Malaysia,'' Human Rights Watch, 2011.
    \17\ http://www.ustr.gov/tpp.
    \18\ ``Fishery Invites Supply Chain Inspection,'' The Nation, June
25, 2014.
    \19\ The True Cost of Shrimp, Solidarity Center, 2008, p. 11.
    \20\ http://www.dol.gov/ilab/reports/child-labor/list-of-goods/.
    \21\ ``U.S. Can Help End Child Labor by Amending 1930 Tariff Act:
View,'' Bloomberg View, January 2, 2012.

    Senator Cardin. Thank you very much.
    Mr. Eaves.

   STATEMENT OF JESSE EAVES, SENIOR POLICY ADVISOR FOR CHILD
            PROTECTION, WORLD VISION, WASHINGTON, DC

    Mr. Eaves. Thank you so much, Mr. Chairman, for convening
this incredibly important hearing and for inviting us to
testify today.
    Both you and Senator Rubio are leaders in the fight against
forced labor, human trafficking, and modern-day slavery. And,
thanks to your tireless efforts, America remains a global
leader in combating these and other crucial issues that
endanger and impact children around the world. And this hearing
really is an important opportunity to shine a light on what is
happening in East Asia and discuss how the United States can
strengthen its role as a partner in the region.
    World Vision is a Christian relief, development, and
advocacy organization that focuses on serving millions of
children and families around the world, in about 100 countries.
Our 45,000 employees are dedicated to working with children,
families, and their communities to really tackle the root
causes of poverty and injustice.
    We have been asked to testify about our experience in
preventing and responding to forced labor and human trafficking
in East Asia. And East Asian countries are a vital and
increasingly influential component to the global economy, yet
the region is also home to large pockets of the poorest and
most vulnerable people on Earth. The nature of the global
marketplace is producing many opportunities to make money in a
few East Asian nations, but it is also creating more ways to
exploit a person for their labor. The opportunity is now and
the tools are available to make U.S. engagement and funding
more coordinated, effective, and efficient in tackling this
vulnerability. So, together with partners in East Asia, we can
ensure that the region's growth is built on the strengths of
its people and not on their backs, through bondage.
    So, in other countries, including America, you know, forced
labor and human trafficking take on many forms, as they do in
East Asia, so we see children exploited as child soldiers,
working in brickkilns, in the construction industry, the
fishing industry, and forced to be domestic servants. And, as
Neha mentioned, it is nearly impossible to address the issue of
forced labor and human trafficking in the region without
talking about migration.
    My written testimony contains the full account of Min Min,
a Burmese boy who was sold to an Indonesian fishing vessel and
spent 9 years as a slave at sea. Cases like these have led
World Vision to spend a great deal of effort educating
communities, especially children aged 15 through 17--that is
the age where they are most likely to go seek a job--we educate
them on the dangers of risky migration and the proactive steps
that they can take to prevent themselves from becoming victims.
    So, for instance, throughout Southeast Asia, we provide
this booklet, called ``The Smart Navigator Booklet.'' It is
small, easy to understand; it covers what human trafficking is
like; and it is provided in local languages. It provides a
checklist for ensuring safe travel, and even includes basic
information, like how to make an international phone call. So,
these simple, yet effective, steps come from having seen so
many stories like Min Min's, when migrating to earn money goes
wrong.
    So, the details of the dangers of unsafe migration and
trafficking and countless other insights fill the pages of the
U.S. State Department's TIP Report. And that reports serves as
an invaluable tool in the U.S. diplomatic toolbox to combat
human trafficking. And the findings and recommendations listed
in the country narratives often inform the development of
governments' laws and national action plans to combat
trafficking. So, these plans provide a guide for what
governments need to do in order to strengthen their efforts,
and provides NGOs like World Vision with a roadmap that shows
what a government's priorities are in this area. So, these
action plans create an opening for us to work alongside
governments to accomplish their goals.
    And, just as an aside, it is critical to point out that
governments cannot make progress alone, and there is no single
intervention or effort that can defeat the use of forced labor
and human trafficking in the long term. So, World Vision
programs have been most successful when we have taken a
multifaceted, multisector approach to combating exploitation.
    So, for example, in a project in Cambodia funded by the
U.S. Department of Labor, World Vision reaches 28,000 children
who have worked in the fishing industry, in agriculture,
domestic servitude, and other sectors. The program focuses on
protection, education, household income, access to credit,
empowerment of local communities, and the list goes on.
    World Vision also focuses on another key factor that most
people take for granted, which is birth registration. Human
traffickers pursue individuals who are vulnerable and
powerless. And without a birth certificate, children are an
especially easy target. And, Senator Rubio, I want to thank
you, in particular, for the work you have done recently in this
area.
    The U.S. Government has multiple options for partnering
with East Asian governments. In addition to the diplomatic tool
that is the TIP Report, the U.S. Government has tools to build
on the recommendations that the TIP Report provides, with
strategic, multisector, bilateral relationships in focus
countries. I can refer you to my written testimony for a full
list that includes USAID's counter-trafficking-in-persons
policy, the action plan for children in adversity, and the key
provisions of the Child Protection Compact Act which both of
you supported in the 2013 reauthorization of the Trafficking
Victims Protection Act. I thank you again for that support.
    These tools allow for constructive and coordinated
bilateral partnerships that will enable these countries to
develop and expand their systems of prevention, protection, and
prosecution, and ideally address many of the root causes of
trafficking in the region. So, you all, in Congress, have given
the administration good tools, and it is critical that we
continue to work together so these tools are not left to rust
in the toolbox.
    So, we thank you again for holding this hearing and for all
the work that you both continue to do to fight forced labor and
human trafficking. We are committed to working with you all and
with the subcommittee on these critical issues. And I look
forward to your questions.
    Thank you.
    [The prepared statement of Mr. Eaves follows:]

                   Prepared Statement of Jesse Eaves

    Thank you, Mr. Chairman, for convening this important hearing and
inviting World Vision to testify. You and Senator Rubio are leaders in
the fight against forced labor, human trafficking, and modern day
slavery. We are especially grateful that you have championed programs
for the protection of vulnerable children. Children around the world
are alive, and contributing to their communities and countries, because
of these programs. Your efforts have led to an increased U.S. focus on
displaced children, orphans, children affected by armed conflict, and
children trafficked for sex or labor. Thanks to your tireless efforts,
America remains a global leader in combating these and other critical
issues that impact and endanger children. This hearing is an
opportunity to shine a light on what is happening in East Asia and the
Pacific and discuss how the U.S. can strengthen its leadership role.
    World Vision is a Christian relief, development, and advocacy
organization serving millions of children and families in nearly 100
countries. Our 45,000 employees are dedicated to working with children,
families, and their communities to tackle the root causes of poverty
and injustice. This work includes emergency relief and preparedness for
people impacted by natural disasters and armed conflict; long-term
economic development; preventing and responding to abuse, neglect,
exploitation, and violence against children; mobilizing children, youth
and local communities to hold their governments accountable; and
advocating for effective systems, laws, and policies that provide a
safety net and protection for vulnerable populations where the social
fabric is especially weak.
    World Vision U.S. has more than 1 million private donors in every
state and congressional district, partners with over 16,000 churches in
the United States, and works with corporations and foundations. We are
part of the global federation of World Vision International, which last
year implemented more than $2.6 billion in programming to help children
and communities through international relief, development, and advocacy
assistance. Although private donors support much of our work, the U.S.
Government is an invaluable partner. We leverage this partnership to
reach many more children at risk and ensure that the precious resources
of the American taxpayer are prudently used to promote and protect the
well-being of children and communities abroad.
    World Vision has been asked to testify about our experience
preventing and responding to forced labor and human trafficking in East
Asia. Our testimony will focus on the U.S. role in combating forced
labor and human trafficking in the region; the importance of the State
Department's Trafficking in Persons Report in addressing human
trafficking in the region; what the 2014 tier placements in the
Trafficking in Persons Report mean for the listed countries and the
U.S.; and the impact of programs (U.S. funded and non-U.S. funded) and
funding that aim to prevent these crimes. East Asian countries are a
vital and increasingly influential component to the global economy. Yet
the region is also home to large pockets of the poorest and most
vulnerable people on Earth. The opportunity is now, and tools are
available, to make U.S. engagement and funding more coordinated,
effective, and efficient. Together with partners in East Asia, we can
ensure that the region's growth is built on the strengths of the
people, not on their backs through bondage.
    According to the International Labor Organization, forced labor and
human trafficking is a $150 billion industry. Most media and
governmental attention to human trafficking focuses on sex trafficking.
However, labor trafficking ensnares more people and makes more money.
This is true in East Asian countries like Cambodia, Laos, Myanmar, the
Philippines, Thailand, and Vietnam.
    As in other countries, including America, forced labor and human
trafficking take on many forms in East Asia. We see children exploited
as child soldiers, working in brick kilns, agriculture, construction,
the fishing industry, and forced to be domestic servants. All of these
countries have laws that address human trafficking and fight labor
exploitation to varying degrees. As in other countries--including
America--there is a disconnect between national laws on forced labor
and human trafficking and local level implementation and awareness of
those laws. In fact, most laws focus on sex trafficking and often leave
labor trafficking as a neglected priority at the national and local
level. As a result, the level of impunity is high and the chances of
justice for survivors is often low. There is often little reason for
employers and traffickers to clean up their act. Furthermore, there are
multiple root causes for forced labor and trafficking including
household income levels, lack of education, issues of land tenure, and
an increasing demand for cheap, unskilled labor. Every story is
different. They still all point to how governments, civil society, and
communities can do better to end modern day slavery.
    In East Asia, migration, within and outside a country's border, is
a common factor for many of the children whom we work with. The nature
of the global market place is producing many opportunities to make
money in a few East Asian nations but is also creating more ways to
exploit a person for their labor. What's more, economic growth in
countries like Thailand, Indonesia, and Malaysia has not been matched
in countries like Myanmar, Laos, and Vietnam. This creates a strong
demand for low-skilled labor that cannot be met by the local
population. As a result, a steady supply of cheap, and often
exploitable, labor moves from one country to another or from rural
areas to urban centers. It is nearly impossible to address the issue of
forced labor and human trafficking in the region without talking about
migration. We have seen families in communities where we work in
Vietnam, Cambodia, and the Philippines torn apart by high amounts of
debt that they take on to pay the fees that unscrupulous employment
agencies often require to secure a job abroad. These jobs are often not
what was promised and can lead to the dark hole of debt bondage.
Understanding and addressing the push and pull factors toward unsafe
migration are critical to preventing and responding to vulnerability.
    Let me share the story of Min Min, who has benefited from one of
our programs in Myanmar. As the eldest son from a poor family in
Myanmar, Min Min felt the pressure to help his family earn money and
survive. He befriended a man who came to his village and told him he
could get work in Thailand. When Min Min arrived in Thailand by boat,
he was immediately sold to an Indonesian fishing vessel. He describes
his ordeal as nothing short of hell. He was forced to work all night
and most of the day for 7 days a week. He says he watched his captures
torture or kill anyone who tried to escape. For 9 years, Min Min toiled
on the boat until finally, one night, desperate to escape, he slipped
off the boat and swam to shore. He found himself in Indonesia with no
food, shoes, nor clothes. He made it to a small village but with no
visa or identity documents there was little that the villagers could do
for him. Min Min was finally able to call his family who contacted
World Vision. We worked with the Myanmar Government to get him back
home and end his ordeal. World Vision's End Trafficking in Persons
Program (ETIP) provides direct assistance to trafficking survivors like
Min Min to fully recover from the trafficking harm and reintegrate into
life in society.
    Min min's story illustrates where so much can go wrong and what can
be done to help prepare migrants for what they might face when they
leave home to work. In Myanmar, Vietnam, and Laos, we've worked with
scores of children who were promised a job either in another city or
another country only to find a situation that was nothing like they
were promised and were forced into a situation where they are denied
even the most basic human dignity. Cases like these have led World
Vision to spend a great deal of effort educating communities and
especially children aged 15-17 (those most likely to take a job) on the
dangers of risky migration and the proactive steps they can take to
prevent themselves from becoming victims. Throughout Southeast Asia,
World Vision runs youth clubs that follow a toolkit composed of safe
migration and trafficking prevention skills and information. Youth
participants receive a pocket guide in local languages called the
``Smart Navigator Booklet,'' developed by World Vision's ETIP Program.
This small, easy to understand booklet covers what human trafficking
is; provides checklists for ensuring safe travel including keeping all
identification documents with you; includes warnings against borrowing
money or placing yourself in debt to your employer; and what to do if
you think you've been trafficked including anti-trafficking hotlines in
every country in East Asia. It even includes basic instructions on how
to make an international phone call. These simple, yet effective, steps
come from having seen so many stories like Min Min's when migrating to
earn money goes wrong.
    None of what is mentioned above should be considered new. Details
about the dangers of unsafe migration and trafficking, and countless
other insights, fill the pages of the U.S. State Department's annual
Trafficking in Persons (TIP) Report. The TIP Report serves as an
invaluable tool in the U.S. diplomatic toolbox to combat human
trafficking. The report is a critical resource to organizations like
World Vision and (though they may be loath to admit it) governments
around the world. Whether country governments denounce the TIP Report,
and bristle or rejoice in their rankings, the TIP Report is a key
driver for national change. The findings and recommendations listed in
country narratives often inform the development of governments' laws
and National Action Plans (NAP) to combat trafficking. These plans
provide a guide for what governments need to do in order to strengthen
their efforts, and NGOs like World Vision with a roadmap that shows a
government's priorities. These action plans create an opening to work
alongside governments to accomplish their goals. For example, after
continued engagement from the United Nations Special Rapporteur for
Children in Armed Conflict and consistent pressure from the TIP Report,
in 2012, the Myanmar Government and the Country Task Force for
Monitoring and Reporting (CTFMR--of which World Vision is a member)
created a Joint Action Plan to cease the recruitment and use of child
soldiers in the national army. To date, 273 children have been
demobilized though hundreds more suspected cases have yet to be
addressed.
    Once a NAP is in place, it is a vital tool that holds the
implementing government accountable and shows where the successes shine
and gaps remain. The National Action Plans in Cambodia, Laos, Myanmar,
Philippines, and Vietnam came after recommendations from the TIP Report
with additional engagement from the U.S. Embassies and the United
Nations. In Myanmar, the Philippines, and Vietnam, the government has
made concerted efforts to include local and international organizations
into the implementation of the action plans, again in part as a result
from TIP Report recommendations.
    The response of governments in the region often focuses on national
efforts, as opposed to implementation at the local level. Our ETIP
program in the region convenes trafficking survivors who provide
recommendations to government officials on such things as how to get
quick access to identification documents for survivors returning from
abroad. While these conversations influence discussions within the
capital, slower implementation due to lack of local government
awareness, capacity, and funding often hinders the effectiveness of the
changes that come about. Yet awareness at the local level is starting
to grow as a direct result of findings from the TIP Report and State
Department engagement. Myanmar has made strong efforts to increase
awareness of human trafficking across the country. These efforts
include a National Anti-Trafficking Day; partnering with MTV Exit and
other partners to host concerts and informational events for young
people; setting up billboards with hotline numbers; broadcasting and
publishing public service announcements on TV, radio, and daily
newspapers, and expanding the government's
Anti-Trafficking Division to start reaching out to more rural areas. As
the TIP Report points out, the Government of Myanmar still has work to
do and Myanmar remains on the Tier 2 Watchlist. We are, however, seeing
progress as a result of the continuing conversations generated in part
through the TIP Report.
    It is critical to point out that governments cannot make progress
alone. There is no single intervention or effort that alone can defeat
the use of forced labor and human trafficking in the long term. World
Vision programs are most successful when we take a multifaceted,
multisector approach to combating exploitation.
    Often times, the most effective efforts seemingly have nothing to
do with forced labor but in fact are aimed at strengthening the formal
(governmental) and informal (community-based) systems of protection
that form a complete safety net for parents and children. For example,
World Vision implements the Cambodians EXCEL (Eliminating eXploitive
Child Labor through Education and Livelihoods). Funded by the U.S.
Department of Labor, Cambodians EXCEL reaches 28,000 children working
in fishing, agriculture, domestic servitude, and other sectors. Child
labor in Cambodia results from factors like poverty, lack of access to
quality education, cultural acceptance of child labor, debt, migration,
and lack of regulation in the informal sector, particularly in
subsistence farming and fishing. The program aims to remove kids from
dangerous or exploitative working conditions and get them back to
school through tutoring and catchup classes.
    The focus on education is particularly important. World Vision
research found that the higher the literacy level of a child, the more
aware they are of human trafficking. World Vision and our local
partners then work with children's parents to increase and diversify
household income and to provide safe options for saving and obtaining
credit. Access to income and credit reduces the incentive to remove a
child from school and send him or her to work. This also keeps families
out of debt and makes them less likely to migrate to find work or place
their kids into a risky situations. A World Vision project in the
Philippines--a model for the Cambodian project and also funded by U.S.
Department of Labor--uses a similar approach that has removed over
70,000 children out of the worst forms of child labor or prevented them
from even being subjected to this labor.
    World Vision also focuses on another key factor that most people
take for granted: birth registration. Human traffickers pursue
individuals who are vulnerable and powerless. Without a birth
certificate, children are an especially easy target.
    According to UNICEF, every year 51 million children are never
registered at birth, leaving them without an official name or
nationality. There are an estimated 135 million unregistered children
in East Asia alone. Children without a birth certificate are denied
basic opportunities and their lives read like a checklist to human
traffickers: poor, no education, unable to access safe credit,
separated from family with no identification, and unable to verify
their age. Lack of age verification makes forced marriage easier.
    Birth registration impacts all aspects of a child's well-being. A
birth certificate helps protect children from human trafficking, child
labor, early marriage, underage recruitment, and conscription into
military service. If a child is abused, neglected, exploited, or
exposed to violence, a birth certificate ensures his or her access to
services and justice systems. It is also critical for obtaining
identity documents needed for transborder migration for work. It is
therefore unsurprising to see that 80 percent of children in Vietnam,
which has almost universal birth registration at 99 percent, are more
aware of the need to travel with identity documents. By comparison,
only 60 percent of children in Burma, which has an 81-percent
registration rate, have such awareness. WV is partnering with Plan
International and the U.N. in organizing the Ministerial Conference on
Civil Registration and Vital Statistics (CRVS) in the Asia and Pacific
in November 2014. This is an opportunity to raise awareness and
generate governmental action on what is the foundation for the
protection and well-being of children.
    The U.S. Government has multiple options for partnering with East
Asian governments and civil societies to strengthen the overall
response to these crimes and prevent them from happening in the first
place. In addition to the diplomatic tool of the TIP Report, the U.S.
Government has tools to build on the recommendations of the TIP Report
with strategic, bilateral partnerships in focus countries. For
instance, the Trafficking Victims Protection Act of 2013 included the
key provisions of the Child Protection Compact Act (CPCA). This allows
the State Department to partner with a government and set measurable
goals over a multiyear period to strengthen the protection system for
vulnerable children and improve justice systems so they investigate and
prosecute those who would exploit a child. This is an exciting
opportunity for sustained engagement of the U.S. Government on these
issues and we're looking forward to the State Department launching this
effort.
    Another opportunity lies with the U.S. Agency for International
Development (USAID). In 2012, USAID unveiled the agency's Counter
Trafficking in Persons (CTIP) Policy. In 2013, they released a field
guide for USAID missions to assist in the implementation of the policy.
One of the programming objectives calls for AID to begin integrating
CTIP efforts into larger programming sectors such as agriculture,
health, economic growth, education, and humanitarian assistance. This
will allow for an increase in anti-trafficking efforts that take the
multifaceted approach that is proving effective at targeting the root
causes of vulnerability. Furthermore, another programming objective of
the CTIP policy is specific CTIP investments in what AID calls
``Critical TIP Challenge Countries.'' These are countries that have
global strategic importance yet have significant trafficking problems.
Of particular focus are countries that have spent several years on the
Tier 2 Watchlist or Tier 3 of the TIP Report. This creates
opportunities for impactful engagement with several countries in East
Asia.
    Finally, further opportunities exist in the Action Plan for
Children in Adversity (APCA). Launched in 2012, the Action Plan unites
and aligns 30 offices in seven U.S. Government agencies around the same
measurable, achievable goals for international programs relating to
vulnerable children. The three main objectives are strong beginnings
(ensuring children meet early childhood development milestones), family
care first (making sure every child is in a safe family environment),
and stronger prevention and response to violence, abuse, neglect, and
exploitation. The Action Plan, currently coordinated by USAID, enables
U.S. Government agencies to coordinate their efforts to make U.S.
programs more effective and efficient. The selection of the first focus
countries will provide an opportunity to show how coordinated and
multifaceted programs can collectively contribute to reducing the
vulnerability of children.
    These tools allow for constructive and coordinated bilateral
engagement that will enable countries to develop and expand the systems
of prevention, protection, and prosecution, and ideally address many of
the root causes of trafficking in the region. With the right engagement
and approaches, we can mitigate trafficking and eliminate it as much as
it possible.
    Recommendations:

  <bullet> Encourage the administration to use bilateral tools like the
        Action Plan for Children in Adversity and Child Protection
        Compact Act that foster collaboration, sustainably
        strengthening systems, and measurable results.
  <bullet> Support current U.S. Government birth registration efforts
        by introducing and passing the Girls Count Act in the Senate
        and urge the U.S. Government to support the implementation of
        East Asia Ministerial Plan of Action (2015-2024) that will be
        finalized during the Ministerial Conference in November 2014.
  <bullet> Encourage USAID to further roll out their Counter-
        Trafficking in Persons (CTIP) policy which calls for
        integrating anti-trafficking efforts into other programs like
        economic development, emergency response, health, and
        education, and other steps and makes augmented investments in
        TIP Challenge Countries.

    Congress has given the administration good tools. It is critical
that we work together so these tools are used and not left to rust in
the toolbox. Thank you again for holding this hearing and for all the
work you continue to do in the fight against forced labor and human
trafficking. World Vision is committed to working with the subcommittee
on these critical issues and I look forward to answering your
questions.

    Senator Cardin. Well, again, I thank both of you for your
advocacy in this area.
    I want to touch on the two areas that we need to have a
better public understanding of what is going on. I know very
well that we had real problems with trafficking for
prostitution, and convincing the public that the people being
trafficked were victims. And it took a major effort to be able
to turn that around. And I think we have, today, and I think
that most people, globally, understand that those who are
trafficked for sex are victims, and are now being treated as
victims. Took a long time for law enforcement to understand
that these people are victims.
    Now, with labor trafficking, it is even more difficult,
because I do not think people really understand that there are
people being trafficked and sold to a boat for 9 years for
fishing. I do not think they really understand. We have up to 4
million people in Malaysia that are emigrants. Now, I am not
saying all of them are being handled illegally or trafficked,
but there is a large number, and we do not see the faces.
    Can you explain to us how these companies operate in
regards to debt bondage and can you just give us a typical
example, a person who is trying to seek a better economic life
for herself or himself, gets trapped with the traffickers and
gets caught in debt bondage.
    Ms. Misra. Thank you for the question, Senator Cardin.
    So, in the East Asian countries--and I worked in Indonesia
for several years, so I saw this firsthand myself--the way it
happens is that usually companies in every industry, from the
formal economy to the informal economy, factories, agriculture,
construction, domestic work, et cetera, hire these employment
agencies to find cheap labor for them in some of the poorer
countries in the region--Indonesia, Nepal, Cambodia, Burma, et
cetera. And these companies will have agents--sometimes they
are independent agents, sometimes they work directly for the
company--who will go into the villages to recruit workers. And
what we find is a lot of false promises being made about the
terms and conditions of work, the wages, and then also fees
being charged directly to the workers for every aspect of the
recruitment process, from getting their passport to just paying
the recruiter for helping them to look for a job. And if these
costs were minimal, then maybe they would be justifiable, but
we have seen cases of people paying 5,000 U.S. dollars, 20,000,
30,000, just for the privilege of being able to labor for
somebody else. And, as a labor rights activist, we find it very
hard to accept that the definition of ``work'' is being
redefined as ``I pay you for the privilege of laboring for
you.''
    Then once these recruiters find the workers--and the
workers obviously do not have this money to pay up front--they
either take loans directly from the labor recruiters or from
loan sharks in their villages or even, in some countries, from
official government banks that charge high interest rates, or
sometimes their wages are directly deducted--in collusion with
the employer--from their paychecks, so they actually do not see
any wages for months to pay back these recruitment fees.
    And then, once they get to the country of destination, into
the job that they were promised--again, oftentimes these jobs
are very different than what they were promised, they are not
paid the wages that they were promised, and we see conditions
of forced labor. And here is where the debt bondage comes in.
Because these workers often come in with visas tied to a
particular employer, if they are being exploited or abused by
that employer, the debt that they have keeps them in that job,
because they cannot move because of the conditions of their
visa to another job.
    The other thing that we see in terms of debt bondage is
complicity of government officials, where government officials
actually take kickbacks, threaten the workers if they do not
pay back the debts; or, in certain countries, like Vietnam, we
actually see government officials running these recruitment
agencies and making money out of it.
    A good example of government complicity in labor
recruitment violations is in Cambodia. Cambodia has a new
section in their interior ministry to deal with labor
migration. The person that they nominated to put in that
position, his sister, runs one of the largest labor recruitment
agencies in Cambodia and that agency has actually been found to
traffic domestic workers to Malaysia. And yet, he is running
the Division of the Interior Ministry in Cambodia.
    And so, there are lots of issues involved with that
bondage, but that is the traditional way that we see it.
    Senator Cardin. Mr. Eaves, the fishing industry is
notorious for laboring. Can you just give us an idea of how
that recruitment works, for the fishing boats?
    Mr. Eaves. Yes. In fact, what we often see is people from
the poorer countries in the region--Burma, Cambodia, Vietnam,
Laos--because the demand is so high for unskilled labor, and it
is actually so easy to cross the border, very often they will
be recruited in their home country or will hear that there are
jobs available on fishing boats. Sometimes, as was the case in
Min Min, the boy that we highlighted in our testimony, he
thought he was coming just to work on the docks, and it was not
until he showed up that a man who told him he was going to get
him the job sold him to an Indonesian fishing vessel.
    And because these ships are so often at sea for so long, it
is very hard to regulate. They are in international waters. And
once someone is on those ships, the litany of abuses that
happens to them is absolutely terrifying, and you hear about
people being thrown overboard, being tortured, being killed for
trying to escape. Min Min actually was able to slip out when
they got close to land, and found himself in Indonesia, but he
did not have any documents, he had nothing to prove who he was.
And it was only after some local village people helped him
contact the World Vision office in Burma, which then got in
touch with the Burmese Government and helped get him back. So
often--I mean, he was definitely lucky. He was one in the
minority that are able to escape that.
    So, that is not to say that not every fishing boat that is
operating in the Andaman Sea or elsewhere is full of
exploitation, but we do see a high number of people being
recruited to the fishing industry.
    Senator Cardin. The three areas of recommendations that you
made--the trade agreements, dealing with legislation to deal
with labor recruiters, and then more consumer activism--
consumers understanding what they are involved with--I wanted
to concentrate on the third point for one moment.
    Could you elaborate more how you could map the supply chain
so that consumers would have better information as to where
products are being produced as it relates to forced labor?
    Ms. Misra. Thank you, Senator Cardin.
    I think that the responsibility for mapping the supply
chain needs to be put on companies and employers, particularly
the end buyers of this. Jesse and I are both members of a
coalition called the Alliance to End Slavery and Trafficking,
ATEST, and we have engaged with a number of employers on this
issue who often make arguments that their supply chain is so
long, it is difficult to map. However, the Solidarity Center
has mapped the supply chain of shrimp from Thailand to grocery
stores here in the United States. The Guardian just did it
recently with the fishing boat story and was able to tie it
directly to grocery stories both in the United States and
abroad. So, we think that it is not as difficult as they say it
is, and that there should be an affirmative responsibility for
them to do that.
    So, that is the first step in the process. I mean, I think
it is very difficult for a consumer to be able to figure out
where their shrimp or their garments are coming from.
    With that said, there are different opportunities now,
because of the Internet, because of different apps, such as
FreeToWork, SlaveFree--what is the SlaveFree--there is another
app--SlaveFreeFootprint, et cetera, that consumers can find out
more information. The companies are given grades on what they
are doing to address forced labor problems, et cetera. But, we
really believe that it should be the responsibility of the
companies, and that they can do it. And one way to do that is
through economic pressure, which we can talk about later.
    Senator Cardin. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Ms. Misra, I wanted to ask you about labor recruiters. You
touched upon that in your statement earlier. They often, you
know, promise victims these lucrative jobs, and then they force
them to work in either forced labor or prostitution. So, if you
could elaborate a little bit more on the type of prevention
programs that exist in some of these countries that prevent
people from falling into these false promises. In essence, what
I am looking for is examples of programs that are actually
working or are successful at making headway and making people
less vulnerable to these recruiters.
    Ms. Misra. Thank you, Senator Rubio.
    And actually, one of the things that we are looking for
also is good practices in this area, which is very difficult to
find in the labor recruitment process.
    A few things that we have seen that have worked, first of
all, is the elimination, completely, of recruitment fees.
Anytime that a country allows recruitment fees, it ends up
being abused, and people end up in situations of debt bondage.
So, really the first thing is to promote ``no fees.'' And we
have seen that in certain sectors. We have not seen it across
the board in any of the countries in East Asia, elimination of
recruitment fees. But, we have seen it in certain sections or
for--when certain employers mandate it, and then the recruiters
that recruit for them do that.
    I will say this is one of the areas--why I mentioned
earlier that we would like to see the U.S. Government take a
lead on this. Already, the Congress and the President, through
the NDAA, in the Executive order last year, have eliminated
fees and regulated labor recruiters further for government
procurement processes. And then, as I mentioned--I cannot say
thank you enough to you about this--but, in S. 744, Subtitle F
removes those recruitment fees. And we think that that is going
to set a great precedent for the rest of the world that we will
be able to use.
    The last thing that I will just say on this is, the ILO
just negotiated this past June a new supplement to the 1930
Forced Labor Instrument Protocol. And as part of it--and I was
part of these negotiations--it calls for the elimination of
recruitment fees, in the regulation, of labor recruiters.
    Senator Rubio. And I wanted to ask you, also, because you
touched upon this a little bit, and actually, so did the
chairman earlier, when he talked about some of these consumer
products that, in the United States, are being bought or
consumed that are, in some cases, potentially done through
forced labor or child labor--what are the industries that are
the most dependent on trafficked labor in Asia?
    Ms. Misra. So, seafood processing would be high on the
list. The second one, I would say, is ready-made garments. We
have seen a lot of issues of forced labor, debt bondage, in the
ready-made garment industry, in terms of what is exported to
the United States. Regionally, you know, there are a lot of
issues with construction and domestic work. But, I would say,
in terms of products that come into the United States, it is
really ready-made garments and seafood.
    Senator Rubio. And, Mr. Eaves, in your testimony you list
several factors that can prevent child trafficking--you know,
high literacy rates, birth registration. Can you just describe
a little bit more in detail how these factors prevent children
from entering the trafficking cycle?
    Mr. Eaves. Absolutely. I will give an example from a
program that we have in the Philippines that is similar to the
one we have in Cambodia, where you have a high number of
children who are forced to work in the sugarcane industry and
then also in the fishing industry and as forced domestic
servants. What we do is, we identify children who are working,
find out the circumstances of them being in that position, and
then we work with their families and with the employer to get
them out of that situation and back into school. But, that only
does so much, because oftentimes they are there because their
parents are not making enough income to be able to support
their family. And so, they pull their kids out of school, will
give them to a labor recruiter or let them work for very cheap,
because some money is better than none.
    And so, what we will then do is work with those families to
do everything from working--they can have backyard gardens and
communal gardens, so they can sell food for more money. They
receive training on how to start a business, how to run a
business, kind of, you know, Business 101; make sure that they
can have access to safe lines of credit so that they are not
taking out debts and placing their family in debt bondage.
    So, you are looking at all the different areas that can
force a family into a situation where they find themselves
handing over a child or themselves to someone who does not want
to do the right thing by that child. And so, we have seen--in
the Philippine example--we have seen over 70,000 children
removed from hazardous and exploitative child labor, and not go
back in, as a result of their family having the income and the
kids having access to an education and a community that has
become empowered to stand up and chase people away who are
trying to recruit kids.
    Senator Rubio. You touched upon the Philippines. I wanted
to follow up, because I know the organization World Vision is
involved there in the relief efforts in the aftermath of the
huge storm that they had. I was concerned--and I visited there
earlier this year--about the impact that the--anytime, we have
seen in the past, like in earthquakes in Haiti, that there have
been massive displacements, the signal goes off in my mind, and
in the mind of many, that this creates increased vulnerability
for children to be trafficked, and even adults, for that
matter. What has been, in your view, perhaps--you may not be
familiar with it, but perhaps you are--if you could share with
us, if you do have this information--what has been the
aftermath of the storm? Have we seen an increase in
vulnerability and/or trafficking as a result of it? Have the
authorities there been able to do a good job of keeping that
from happening?
    Mr. Eaves. Actually, I was just in the Philippines last
month in the typhoon-affected areas. And so, one of the things
that we have done is, USAID has provided funding to start a
project looking at preventing and responding to vulnerability
to trafficking. And the way they are doing it is through their
larger counter-trafficking-in-persons policy, which they
launched last year, which calls for an integration of not only
addressing human trafficking, but looking at other issues, as
well, integrating kind of a trafficking focus into other
sectors. In this case, it is livelihoods or helping people earn
a living again.
    And so, we are implementing a project in Ormoc province,
which was one of the most heavily damaged and where we have
seen most of--you know, most of the children have not been able
to return to school, there is high levels of vulnerability,
people's entire crops and livelihoods have been wiped out. And
so, we know of cases where children have been trafficked.
    And adults, in particular, are incredibly susceptible to
labor recruiters, under the circumstances that Neha was talking
about. And so, as part of this project, we are working with
these families to be able to earn an income so they can protect
themselves while at the same time educating them on the dangers
of labor recruiters and risky migration practices, and trying
to keep them in their home communities, where they can try to
get their lives back on track and rebuild after the storm.
    But, that is an example of how the U.S. Government can
engage from multiple angles to prevent vulnerability to
trafficking while also improving people's income and safety at
the same time.
    Senator Rubio. Thank you.
    Senator Cardin. Let me thank both of you for your
testimony.
    Ms. Misra, if you will follow up with us on the mapping
issue, the corporate responsibility, company responsibility, I
would appreciate that, because I think we are all interested.
    And I think most people in this country--a large number of
people in this country would not want to participate in forced
labor. So, given the opportunity, I think they would take
action. So, I would be interested as to how you see reasonable,
responsible regulations or laws that could help consumers be
better consumers in this area. So, if you could make that
available to us, I would very much appreciate it.
    Senator Cardin. And we thank both of you for your
testimony. This, to me, has been a very helpful hearing. As I
said in the opening, it is a dimension of our Rebalance to Asia
that needs to have a spotlight on it, and I think this hearing
has helped us do that. And I thank you both for your
participation.
    Ms. Misra. Thank you very much.
    Mr. Eaves. Thank you.
    Senator Cardin. With that, we will keep the record open
until the close of business on Thursday.
    And the subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
